<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Murray, Cochran, Bond, 
Shelby, and Bennett.

                         DEPARTMENT OF DEFENSE

                      DEPARTMENT OF THE AIR FORCE

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE
        GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF, UNITED STATES AIR 
            FORCE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee convenes to 
hear testimony from the Air Force on its budget request for 
fiscal year 2010, and I am pleased to welcome the Secretary of 
the Air Force, the Honorable Michael Donley, and the Chief of 
Staff of the Air Force, General Norton Schwartz.
    Gentlemen, welcome. And I realize this is your first time 
here, but I can assure you that we are looking forward to 
working with you in the coming years because we believe that 
the Air Force is a very important part not just of the defense 
community, but of the United States.
    So let me begin by commending you both for the measures 
taken to strengthen stewardship of the Air Force's nuclear 
arsenal. The fiscal year 2010 budget includes several key 
improvements, including an increase in personnel for the 
nuclear mission and the establishment of the Global Strike 
Command. Your leadership has been essential, and we look 
forward to continued progress.
    For fiscal year 2010, the Air Force is requesting $160.5 
billion in the base budget and $16 billion in the overseas 
contingency operations budget. This budget submission is 
notable in a number of ways.
    First, it funds a more robust active duty end strength 
level of 331,000 personnel rather than continuing the drawdown 
that we have witnessed up until now. It is important to 
stabilize the Air Force manpower levels, especially now when 
mission demands are increasing.
    More personnel will help to meet the needs of irregular 
warfare, aerial surveillance support, cyberspace and 
acquisition excellence, and in restoring the nuclear 
enterprise. The subcommittee will be interested in how the Air 
Force plans to allocate personnel across these critical 
missions.
    It is noteworthy that this budget supports the continued 
emphasis on irregular warfare and building up the intelligence, 
surveillance, and reconnaissance assets needed in today's 
fight. It will increase the Predator and the Reaper unmanned 
aerial vehicle (UAV) coverage to 43 combat air patrols. The 
budget also supports the training and operation of the MC-12 
Liberty ISR aircraft. The Air Force has made great strides in 
improving its posture in this mission area.
    Third, this budget reflects the hard and controversial 
decisions that the Department is making on future investments. 
In this request, the F-22 Raptor, the C-17 airlifter, and the 
transformational communications satellite programs are 
terminated. The joint cargo aircraft program is reduced from 78 
to 38 aircraft and is no longer a joint program with the Army.
    The request restructures the combat air forces and retires 
249 fighter aircraft. The subcommittee will be interested in 
understanding both the risks and benefits of these choices.
    Gentlemen, I remain concerned about the aging aircraft 
fleet, especially the tanker fleet. The average aircraft age is 
now over 24 years. The average age of the KC-135 fleet is close 
to 50 years. The tanker aircraft must be replaced, and I have 
several questions on this program and many others today.
    And I look forward to hearing your testimony this morning. 
Your full statements will be made part of the record, but 
first, I would like to turn it over to the vice chairman of 
this subcommittee, Senator Cochran of Mississippi, for any 
opening remarks he may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, it is a pleasure to work 
with you on this important subcommittee and to join you in 
welcoming our distinguished witnesses before the subcommittee 
today.
    The Air Force is playing a unique and important role in the 
defense of our Nation. We respect all of you who are involved 
in that. We thank you for your dedicated service and bringing 
to the challenge the expertise and results of the training and 
experience you have had in the defense of our Nation.
    The aircraft and forces of the Air Force have been 
protecting our Nation's interests in a very remarkable and 
praiseworthy way. We especially appreciate the dangers that are 
faced in Iraq, Afghanistan, and other areas around the world 
where the Air Force is playing a very important and active role 
in helping ensure that our Nation's policies succeed in those 
areas.
    We look forward to hearing your testimony to help us 
determine how best to allocate the resources that are available 
to this subcommittee for the Air Force in carrying out your 
missions.
    Thank you very much.
    Chairman Inouye. Thank you very much.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    And I join with the chairman in congratulating you on the 
good work you are doing to restore the reliability and 
assurance of our Nation's nuclear mission, and we welcome 
Secretary Donley. We thank both of you for your distinguished 
service.
    Gentlemen, as you know, we have had discussions about 
concerns over the tactical fighter's air shortfalls and, as the 
chair mentioned, 24 years age on the Air Force fleet. Last 
year, before the Airland Subcommittee of SASC, the Air Force 
testified it was facing a shortfall of 800 plus aircraft Air 
Force wide. And the Air National Guard testified that over the 
next 8 to 9 years, Air Guard is facing a fighter shortfall that 
will result in 80 percent of the aircraft used to defend the 
skies of the United States, the Air Sovereignty Alert mission, 
being retired.
    And it is clear from what the Government Accountability 
Office (GAO) has told us that accelerating the Joint Strike 
Fighter (JSF) will not prevent the fighter gap. In March of 
this year, GAO concluded it would cost $33 billion to 
accelerate the JSF program and said, ``Accelerating procurement 
in a cost reimbursement contract environment, where 
uncertainties in contract performance do not permit costs to be 
estimated with sufficient accuracy to use any type of fixed-
price contract, places very significant financial risk on the 
Government.''
    My view, now is not the time to be placing significant 
financial risk on the Government, and it is never time to place 
the country at a security risk. But it is my view that is what 
the present budget is proposing.
    I know a lot of people will talk about the Quadrennial 
Defense Review (QDR), but as in years past, we have seen that. 
We have got the T-shirt. I know that it will be an attempt to 
justify the budget reductions by saying we don't need as many 
fighters. It is a massive budget drill. But none of that 
analysis--I will review that when it comes out--will be 
available in time for this budget session.
    So I remain convinced and we will discuss whether it is 
time to rethink the plan. JSF is too big to fail. So we are not 
going to let it go, but is it time to look at an 85 percent 
solution at one-half to two-thirds of the cost, giving the Air 
Force the proven platforms that will bridge us to the time, if 
and when, the JSF can complete its mission?
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. And I just want to say welcome to Secretary 
Donley and General Schwartz, and I look forward to their 
testimony. And of course, I have some questions, especially, as 
the chairman mentioned, in dealing with the tanker competition. 
And also, Mr. Secretary, with the UAVs and so forth. We will 
get into that after your testimony.
    Thank you.
    Chairman Inouye. Mr. Secretary?

              SUMMARY STATEMENT OF HON. MICHAEL B. DONLEY

    Mr. Donley. Thank you, Mr. Chairman, Senator Cochran, 
members of the subcommittee.
    It is, indeed, a privilege to be with you today to testify 
on the fiscal year 2010 budget and Air Force's future plans.
    It has been almost a year since General Schwartz and I took 
on these roles, and I will tell you that it has been both a 
pleasure and a privilege to work with General Schwartz in this 
effort. He has been an outstanding partner and wingman in our 
work together over the last year.
    In recent months, Secretary Gates and Admiral Mullen led a 
constructive dialogue about necessary changes in our national 
defense priorities and areas of emphasis. Our discussions 
emphasized taking care of our most important asset, which is 
our people; rebalancing our capabilities to fight and win the 
current and most likely conflicts in front of us, while also 
hedging against other risks and contingencies; and reforming 
how and what we buy.
    We have contributed our analysis and judgment to these 
discussions throughout. With OSD and our sister services and 
interagency partners, we have undertaken several strategic 
reviews of the Air Force in the last year.

                     AIR FORCE STRATEGIC PRIORITIES

    Last fall, we refined the Air Force mission statement, 
articulated our five strategic priorities, and refined the core 
functions of the Air Force to more clearly articulate our role 
in the defense and national security establishment. We also 
made progress in areas that required focused attention in the 
near term, such as strengthening the Air Force's nuclear 
enterprise, preparing to stand up our cyber numbered air force, 
articulating our strategy for irregular warfare and 
counterinsurgency operations, consolidating our approach in the 
Air Force for global partnerships, and advancing stewardship of 
our energy program.
    Our reviews were guided by the concept of strategic 
balance, which has several meanings for us. As Secretary Gates 
and Admiral Mullen have described, balance means prevailing in 
today's fight while also being able to respond across the 
spectrum of conflict to emerging hybrid threats.
    Balance also means allocating investment across our 12 
diverse, but complementary core functions, and balance also 
means organizing training and equipping across the Air Force 
components--active, Guard, Reserve, and our civilian workforce 
as well.

                          AIR FORCE PERSONNEL

    Our budget proposal recognizes that our people are the 
heart and soul of America's Air Force, and without them, our 
organizations and equipment would simply grind to a halt. In 
fiscal year 2010, we are reversing previously planned 
reductions in Air Force active duty end strength with 
commensurate adjustments in the Reserve components as well. We 
will also grow our civilian cadre, with focused attention on 
the acquisition workforce.
    At the same time, we will continue to reshape our skill 
sets, with particular emphasis on stressed career fields and 
missions that need our attention now, such as intelligence, 
surveillance, and reconnaissance (ISR); acquisition; 
maintenance; cyber operations; and nuclear matters.
    For fiscal year 2010, we are also driving more balance into 
our force structure. In theater, the demand for ISR and special 
operations capabilities continues to increase. So we will 
increase unmanned aerial system combat air patrols, as the 
chairman mentioned, from 34 today to 43 by the end of fiscal 
year 2010, as well as increase our special operations forces 
end strength by about 550 personnel.

                      AIR FORCE COMBAT CAPABILITY

    We also took a broader strategic look at the total combat 
Air Force capability, and there is a general view in the 
Department's leadership that the United States has enough 
tactical air capability. With that in mind, we determined that 
this was a prudent opportunity to accelerate the retirement of 
older aircraft, as we have done in this budget.
    As a result, we will reshape the portfolio of the fighter 
force by retiring about 250 of our oldest tactical fighters. We 
will complete the production of the F-22 fighter at 187 
aircraft and continue our planned modernization of the F-22 
going forward. And we are readying another fifth generation 
fighter, the F-35 Joint Strike Fighter, to become the workhorse 
of our new fighter fleet in the future.
    We will ensure balance for joint airlift needs by 
completing the C-17 production, subject to continued 
congressional action in that area, continuing to modernize our 
C-5s, reinitiating the C-130J production line, and 
transitioning the C-27J program office from the Army to the Air 
Force.
    In particular, the Department made a judgment that the 316 
strategic airlift tails in the program of record is adequate to 
meet our needs. We also conducted a business case analysis that 
identified alternatives to improve our current strategic 
airlift fleet at less cost than simply buying more C-17s. We 
know that is an issue with Congress, and we look forward to 
further discussions with you on that subject.
    Our plan is to enhance the stability and remove risk in our 
military satellite communications (SATCOM) programs by 
extending our advanced extremely high frequency (AEHF) and 
wideband global SATCOM (WGS) inventories and continuing our 
partnerships with commercial providers.
    While AEHF does not give us all the capabilities projected 
for the transformational satellite (TSAT) program, additional 
AEHF and WGS satellites provide additional SATCOM capability 
until we can gain confidence about the affordability and the 
requirements for TSAT-like capabilities in the future.

                         AIR FORCE ACQUISITION

    We have also placed additional emphasis on Air Force 
acquisition. We recently published an acquisition improvement 
plan to focus our efforts in several key areas. First, 
revitalizing the Air Force acquisition workforce. Second, 
improving our requirements generation process. Third, 
instilling more budget and financial discipline in our work. 
Fourth, improving Air Force major system source selections in 
the Air Force. And last, establishing clear lines of authority 
and accountability within our acquisition organizations.
    We will continue to work on these issues going forward with 
Secretary Gates and Dr. Carter.
    Over the coming months, we will, of course, participate in 
several major reviews underway in the Department--the QDR, the 
nuclear and space posture reviews. And from these analyses, we 
will better understand the needs, the requirements, and 
available technologies for long-range strike, as well as our 
requirements and potential joint solutions for personnel 
recovery.

                           PREPARED STATEMENT

    Mr. Chairman, stewardship of the United States Air Force is 
a responsibility that we take very seriously, and we know this 
subcommittee does as well. We thank you for your support for 
our airmen and for our national security in general, and we 
look forward to the continued support of this subcommittee and 
working with you in the future.
    Thank you.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]

   Prepared Statement of the Honorable Michael B. Donley and General 
                           Norton A. Schwartz
    The 2009 Air Force Posture Statement articulates our vision of an 
Air Force ready to fulfill the commitments of today and face the 
challenges of tomorrow through strong stewardship, continued precision 
and reliability, and dedication to persistent Global Vigilance, Reach 
and Power for the Nation.

                              INTRODUCTION

    Today, the United States faces a spectrum of challenges to our 
national security and global interests. As an integral member of the 
Joint team, America's Air Force provides the critical capabilities of 
Global Vigilance, Global Reach, and Global Power. The U.S. Air Force is 
``All In'' today's Joint fight. At the same time, our investments in 
new capabilities will ensure we are ready for tomorrow's challenges. 
The mission of the U.S. Air Force is to ``fly, fight, and win . . . in 
air, space and cyberspace''--as an integral member of the Joint team 
that ensures our Nation's freedom and security.

                          A BALANCED APPROACH

    Today's uncertain international security environment requires a 
balance-driven approach to prevail in today's operations, and prepare 
for tomorrow's challenges by identifying and investing in new 
capabilities and force structure. This balanced approach postures the 
Air Force to provide an array of capabilities to Combatant Commanders 
across the spectrum of conflict--from building partnership capacity to 
ensuring the readiness of strategic deterrence forces.

                        AIR FORCE CORE FUNCTIONS

    Our Air Force's foremost responsibility is to organize, train, and 
equip Airmen to meet the needs of our national leadership and Combatant 
Commanders. Our fiscal year 2010 budget proposal reflects a commitment 
to the 12 Air Force Core Functions, which provide the framework for 
investment and training.
Air Force Core Functions
Nuclear Deterrence Operations
Air Superiority
Space Superiority
Cyberspace Superiority
Global Precision Attack
Rapid Global Mobility
Special Operations
Global Integrated ISR
Command and Control
Personnel Recovery
Building Partnerships
Agile Combat Support

    The Air Force fiscal year 2010 budget proposal reflects a 
commitment to our Core Functions that will be informed by numerous 
reviews of the overall defense-planning construct. Through the 
Quadrennial Defense Review (QDR), the Nuclear Posture Review (NPR), the 
Space Posture Review (SPR) and internal mid-term reviews, we will 
continue to sharpen and institutionalize our Core Functions. These 
capabilities, combined with the extraordinary commitment and dedication 
of our Airmen, provide our Nation with truly exceptional air, space, 
and cyber power.

                     NUCLEAR DETERRENCE OPERATIONS

    For more than 60 years, the Air Force has proudly served as 
stewards of a large portion of our Nation's nuclear arsenal. We 
operate, maintain and secure these nuclear forces to deter potential 
adversaries and to prevail if deterrence fails. Recent incidents and 
assessments have highlighted performance shortfalls, and we are 
diligently working to ensure the safety, security, and reliability 
demanded for this vital capability.
    Our fiscal year 2010 budget proposal addresses many of the 
recommendations provided by the various assessments of the Air Force 
nuclear enterprise. Our overall investment in nuclear deterrence 
operations in fiscal year 2010 is $4.9 billion, which includes 
increasing nuclear related personnel by 2,500 and adding a fourth B-52 
squadron. The fiscal year 2010 budget proposal places additional 
emphasis on nuclear weapons security, committing $72 million to 
strengthen the physical integrity of our Weapon Storage Areas.
    Through a back-to-basics approach, the Air Force is re-emphasizing 
accountability, compliance, and precision in the nuclear enterprise. We 
are reorganizing our nuclear forces in a manner that reduces 
fragmentation of authority and establishes clear chains of supervision 
for nuclear sustainment, surety and operations. These changes include: 
(1) consolidating all nuclear sustainment matters under the Air Force 
Nuclear Weapons Center; (2) establishing a new Air Staff nuclear 
directorate responsible for policy oversight and integration of our 
nuclear enterprise activities; and (3) standing up Air Force Global 
Strike Command, which is already operating in a provisional status at 
an interim location. Global Strike Command will consolidate Air Force 
Intercontinental Ballistic Missiles and nuclear-capable bombers under a 
single command, and is on track to activate later this year.

              AIR SUPERIORITY AND GLOBAL PRECISION ATTACK

    Air Superiority and Global Precision Attack remain the foundations 
of our ability to deliver Global Power. In fiscal year 2010, we are 
investing $21 billion into these Core Functions.
    New and unprecedented challenges to our Nation's Air Superiority 
continue to emerge, and threaten to remove the technological advantage 
enjoyed by our Air Force. Our adversaries continue to invest in highly 
capable surface-to-air missile technology, which threatens even our 
most advanced combat aircraft. Likewise, emerging adversaries may now 
pose a significant air threat by leveraging inexpensive technology to 
modify existing airframes with improved radars, sensors, jammers, and 
weapons.
    To meet these challenges and assure freedom of movement for the 
Joint team, the Air Force continues to invest in weapons and platforms 
for Global Precision Attack. The Joint Air Surface Standoff Missile--
Extended Range, will enable our aircrews to attack targets precisely 
while negating or avoiding surface threats. Similarly, the Laser Joint 
Direct Attack Munition will enhance our capability to strike moving or 
static targets efficiently and precisely.
    The F-22 and F-35 are key components of the Air Force's future Air 
Superiority and Global Precision Attack Core Functions. Given their 
low-observable characteristics and ability to fuse information from 
multiple sensors--key components of their 5th Generation designs--these 
aircraft are far more survivable and lethal than our current 4th 
Generation force. While the F-35 is optimal for Global Precision 
Attack, it also serves as a complementary capability to the F-22, which 
is optimal for Air Superiority. Together, they form the backbone of a 
fighter force that will ensure the United States maintains a decisive 
edge in an increasingly lethal threat environment. We support the 
current investment strategy that ends F-22 production at 187 aircraft. 
The Air Force will invest $4.1 billion in fiscal year 2010 to procure 
10 F-35s as part of the Department of Defense's strategy to ramp up 
production. By accelerating the procurement ramp, we can lower unit 
procurement costs while also making the platform more cost competitive 
for our Coalition partners.
    Our fiscal year 2010 budget proposal accelerates the integration of 
our Guard and Reserve components into new and emerging mission sets, 
including unmanned aerial systems, F-22 and F-35 missions. By 
considering Air National Guard and Air Force Reserve Command for 
inclusion in emerging mission areas and basing strategies, we 
capitalize on the experience and unique skill sets that our Air Reserve 
Components contribute to the Total Force.
    We are also modernizing our existing bomber force to increase its 
effectiveness and survivability against emerging threats, while meeting 
the requirements of today's Joint Force Commanders. We have fielded a 
state-of-the-art infrared, electro-optical targeting pod on the B-1 to 
provide an additional, persistent sensor on the battlefield to self-
target weapons, or provide real-time streaming video to ground forces. 
We are also modernizing our B-2 fleet by improving the radar, 
integrating the Link-16 data link and adding extremely high frequency 
satellite communication capabilities for nuclear command and control. 
In addition, investments in low observable maintenance improvements 
will decrease sustainment costs and reduce aircraft downtime. In 
accordance with the Secretary of Defense's budget guidance, we will not 
pursue the development of the Next Generation Bomber until we have a 
better understanding of the requirements, technologies, and concept of 
operations for this capability--all of which are expected to be 
addressed in the QDR.
Restructuring Our Combat Air Forces
    This year, the Department of Defense provided guidance for the 
military to eliminate excessive overmatch in our tactical fighter force 
and consider alternatives in our capabilities. Acting on this guidance, 
the Air Force examined emerging, advanced threats and then analyzed our 
Combat Air Forces' capabilities against them. Our intent was to ensure 
the proper mix of platforms that meet requirements while minimizing 
excess inventory and deriving the most capability from our limited 
resources.
    After a comprehensive review of alternatives, the Air Force saw an 
opportunity to reshape our aging fighter force via an accelerated 
retirement of our oldest legacy fighters. The review weighed the 
benefits of retiring aircraft nearing their expected service life, 
against near-term risk. The analysis also considered the ``game-
changing'' capabilities of low observable platforms like the B-2, F-22, 
and F-35 that possess the ability to access areas defended by advanced 
surface-to-air missile systems.
    Once the size and scope of the reduction was determined, the Air 
Force presented its implementation plan to the Combatant Commanders, 
Joint Staff and the Office of the Secretary of Defense. Accelerating 
the retirement of roughly 250 legacy F-15s, F-16s, and A-10s enables us 
to redistribute over $3.5 billion in the next 6 years to modernize our 
Combat Air Forces into a smaller, but more capable force--one that is 
balanced across our Active and Reserve Components and meets our 
commitments at home and abroad. This restructuring also facilitates the 
movement of approximately 4,000 manpower positions that will be 
realigned to support growth in priority missions such as manned and 
unmanned aerial surveillance systems, ISR support, and the nuclear 
enterprise.
    Our current fleet of legacy and 5th Generation aircraft represent 
our readiness to fulfill today's commitments, while our fiscal year 
2010 budget proposal invests in a future force mix to meet tomorrow's 
challenges.

                         RAPID GLOBAL MOBILITY

    Global Reach ensures our Joint team can deploy, maneuver and 
sustain large forces on a global scale. In Iraq and Afghanistan, Air 
Force air mobility assets are central to sustaining the Joint and 
Coalition team. On any given day, Air Force C-5s deliver life-saving 
Mine Resistant Ambush Protected vehicles into theater; C-17s airdrop 
critical supplies to forward-based ground forces via the revolutionary 
GPS-aided Joint Precision Airdrop System; and C-130s provide tactical 
airlift to move theater-based personnel and equipment. Highly skilled 
aeromedical transport teams swiftly evacuate combat casualties, 
ensuring our wounded warriors receive the best possible medical care. 
And Air Force air refueling aircraft continue to play a vital, daily 
role in extending the range and persistence of almost all other 
aircraft of the Joint force. The fiscal year 2010 budget proposal 
reflects our commitment to sustaining and modernizing these critical 
national capabilities.
    Replacing the aging KC-135 fleet remains the Air Force's top 
acquisition priority. The fiscal year 2010 budget proposal supports the 
release of a request for proposal in summer 2009 with a contract award 
early in fiscal year 2010.
    The fiscal year 2010 budget proposal continues efforts for 
modernization and includes funding to begin the shut down of the C-17 
production with a fleet of 205 aircraft. Modernization of our C-5 fleet 
continues through the Avionics Modernization Program and Reliability 
Enhancement and Re-engining Programs, and during fiscal year 2010 we 
will continue recapitalizing our intra-theater airlift capability by 
re-initiating the C-130J production line following one year procurement 
gap and procuring three C-130J aircraft for $394 million.
    The Air Force will also begin procuring C-27J in fiscal year 2010 
to provide mission-critical/time-sensitive airlift in direct support of 
our Joint partners. The fiscal year 2010 budget proposal procures 8 C-
27Js, as the first step toward a total procurement of 38 C-27Js. The 
Air Force continues to work closely with the U.S. Army to accept full 
management of the Joint Cargo Aircraft (JCA) program and the direct 
support airlift mission.

                           SPECIAL OPERATIONS

    Air Force special operations capabilities are playing an 
increasingly vital role in supporting U.S. Special Operations Command 
(USSOCOM) and geographical Combatant Commanders. We are also responding 
to significant growth in the requirements for Irregular Warfare (IW) 
capabilities with major investments in special operations airlift, 
close air support and Intelligence, Surveillance and Reconnaissance 
(ISR).
    Our fiscal year 2010 budget proposal reflects the Air Force's 
commitment to special operations capabilities, and includes $862.6 
million for the procurement of 4 MC-130Js and 5 CV-22s. AFSOC will 
expand its special operations ISR force structure by activating a 
squadron of MQ-9 Reapers, in addition to the already operational MQ-1 
Predator squadron. Additionally, we are recapitalizing our MC-130E/P 
fleet with newer, more capable MC-130Js for low-level air refueling, 
infiltration, exfiltration and resupply of special operations forces. 
At the same time, we will convert 8 MC-130Ws to AC-130 gunships, and 
procure additional CV-22s.

                         GLOBAL INTEGRATED ISR

    Operations in Iraq and Afghanistan have highlighted the increasing 
need for timely, fused data from all available sources. To meet this 
need, we are greatly expanding our airborne ISR force structure of 
manned and unmanned ISR assets. In fiscal year 2009, we will field the 
MC-12W to provide increased full-motion video and signals intelligence. 
Additionally, our fiscal year 2010 budget proposal continues major 
investments in unmanned aircraft, transitioning from the MQ-1 Predator 
to the MQ-9 Reaper, with $489 million for 24 additional MQ-9s to 
increase our total UAS combat air patrols from 34 CAPs today to our 
goal of 50 CAPs by the end of fiscal year 2011. We are also investing 
$84 million to integrate the Wide Area Airborne Surveillance (WAAS) 
onto existing and new MQ-9s, providing 12 times the number of streaming 
video spots per aircraft. Our fiscal year 2010 budget proposal also 
contains funding for five RQ-4 Global Hawk UAVs, which provide 
persistent ISR from high-altitude orbits. We are also balancing our ISR 
personnel requirements by re-examining our training programs for 
intelligence professionals, creating new duty specialty codes, and 
establishing trial programs to develop ISR operators.

                          COMMAND AND CONTROL

    The Air Force has established Air and Space Operations Centers 
(AOCs) aligned with each geographical Combatant Commander to integrate 
air, space, cyber, and missile defense capabilities into Joint 
operations. We have also improved our Tactical Air Control System 
(TACS) to account for increasingly distributed air-ground operations in 
Iraq and Afghanistan. Our restructured Air Liaison Officer program 
offers these Airmen a viable career path. We are also training 
additional terminal air controllers and equipping them with 
increasingly capable, portable and flexible air strike control systems 
like Remote Operated Video Receiver (ROVER) version 5.

                           SPACE SUPERIORITY

    America's ability to operate effectively across the spectrum of 
conflict rests heavily on our space capabilities. Recognizing this 
importance, our fiscal year 2010 budget proposal includes $4.4 billion 
for procurement of space and related support systems.
    The Joint force depends upon space capabilities provided by the Air 
Force, which fall into five key areas: Early Warning; Space Situational 
Awareness; Military Satellite Communications; Positioning, Navigation 
and Timing; and Weather capabilities. We will field several new 
satellites, including the Global Positioning System Block IIF, Advanced 
Extremely High Frequency (AEHF), Space Based Surveillance System 
(SBSS), and the Space Based Infrared System--Geostationary (SBIRS-
Geo)--recapitalization programs that are important to both the United 
States and its Allies. The fiscal year 2010 budget proposal 
discontinues the Transformational Satellite (TSAT) program and supports 
procurement of additional AEHF and Wideband Global SATCOM (WGS) 
satellites.

                         CYBERSPACE SUPERIORITY

    Operating within the cyber domain has become an increasingly 
critical requirement for our networked force. In order to develop and 
institutionalize cyberspace capabilities, and to better integrate them 
into the Joint cyberspace structure, we are consolidating many Air 
Force cyberspace operations into a new 24th Air Force under Air Force 
Space Command. The Air Force is firmly committed to developing the 
necessary capabilities to defend the cyber domain, and our fiscal year 
2010 budget proposal includes $2.3 billion to grow this important Core 
Function.

                           PERSONNEL RECOVERY

    Personnel Recovery (PR) remains an imperative, fulfilling our 
promise to never leave an American behind. Air Force PR forces are 
fully engaged in Iraq and Afghanistan, accomplishing crucial missions 
that include command and control, intelligence, CSAR, convoy support, 
hostage recovery, and reintegration.
    The fiscal year 2010 budget proposal terminates the current CSAR-X 
program to allow for additional discussion on platform requirements and 
quantities across the Joint force. We will continue to sustain our HH-
60 helicopter fleet, while exploring Joint solutions to ensure 
sufficient PR capabilities in the coming years. We are continuing to 
extend our current capabilities by recapitalizing our HC-130P/N fleet 
with newer, more capable HC-130Js to provide low-level air refueling, 
infiltration, exfiltration, and resupply of CSAR forces. In fiscal year 
2010, we will invest $605 million to procure an additional five HC-
130Js.

                         BUILDING PARTNERSHIPS

    The Air Force continues to seek opportunities to develop our 
partnerships around the world, and to enhance our long-term 
capabilities through security cooperation. For example, in the Central 
Command AOR, deployed Airmen are working with our Afghan and Iraqi 
partners to build a new Afghan National Army Air Corps and the Iraqi 
Air Force. We are also working to further partnerships with more 
established allies, with programs like the Joint Strike Fighter, where 
our allies have committed $4.5 billion in research and development 
funding. Australia's commitment to fund a communications satellite in 
the WGS constellation is another example of the value and synergy of 
lasting partnerships.
    In the recently released Global Partnership Strategy, we outlined a 
path to cultivate these key partnerships, nurturing the global 
relations, fortifying our geographic access, safety and security around 
the world. The strategy seeks to develop partners who are able to 
defend their respective territories while ensuring the interoperability 
and integration necessary for Coalition operations.

                          AGILE COMBAT SUPPORT

    Underpinning the work of all Air Force Core Functions are the 
capabilities included in Agile Combat Support. As part of our fiscal 
year 2010 budget proposal initiatives, Agile Combat Support accounts 
for efforts affecting our entire Air Force, from the development and 
training of our Airmen to revitalizing our processes in the acquisition 
enterprise. Agile Combat Support reflects a large portion of the Air 
Force budget proposal, totaling approximately $42 billion.
Developing and Caring for Airmen and Their Families
    The Air Force remains committed to recruiting and retaining the 
world's highest quality force, while meeting the needs of their 
families. Our fiscal year 2010 budget proposal enables us to recruit, 
train, educate, and retain the right number and mix of personnel, and 
to provide Quality of Service worthy of our Airmen's commitment to 
serve in the Armed Forces of the United States and supports an end 
strength of 331,700 active duty personnel.
            Sharpening Our Skills
    Our fiscal year 2010 budget proposal enables us to train Airmen to 
fulfill both our Core Functions and the Combatant Commander's 
requirements. These changes span the vast array of skill sets, from 
improving language and cultural instruction to accelerated training for 
network operators. In fiscal year 2010, we will also enhance 
foundational training received by all enlisted personnel entering the 
Air Force by constructing a $32 million state-of-the-art training 
facility at Lackland Air Force Base.
            Quality of Service
    The Air Force leadership is committed not only to the quality of 
life of our Airmen and families, but also to their Quality of Service--
ensuring each Airman is able to perform consistently meaningful work 
and make a daily impact on the Air Force mission.
    We also understand the burdens placed on the families of our 
Airmen. To meet the needs of our Airmen and their families, our fiscal 
year 2010 budget proposal funds a range of needed Quality of Life 
initiatives, including expanded legal assistance, advanced educational 
opportunities and new family housing. For example, our fiscal year 2010 
budget proposal invests $20 million to build two new Child Development 
Centers, as well as $66 million to improve and modernize military 
family housing overseas. The Air Force is also continuing to execute 
its Family Housing Master Plan, which synchronizes the military 
construction, operations and maintenance, and privatization efforts 
necessary to improve our family housing. By fiscal year 2010, we will 
have all the funds necessary to award the privatization and MILCON 
projects needed to eliminate all of our inadequate homes, both in the 
United States and abroad--with all projects scheduled to be completed 
by fiscal year 2015. To this end, we are on track to award contracts to 
privatize 100 percent of Military Family Housing in the CONUS, Hawaii, 
Alaska, and Guam by the end of fiscal year 2010. For Airmen concerned 
about foreclosure, we provide assistance at the Airmen and Family 
Readiness Center at each Air Force installation. Additionally, we are 
working with the Department of Defense as it expands the Homeowners 
Assistance Program to wounded warriors/civilians, surviving spouses, 
and eligible military members affected by permanent changes of station.
            Shaping the Force
    America's Air Force draws its strength from its outstanding Airmen, 
with over 660,000 members of our Regular, Reserve, Guard, and Civilian 
personnel dedicated to the mission of the Air Force. In accordance with 
the Secretary of Defense's guidance, we will halt active duty manpower 
reductions at 331,700 for fiscal year 2010. We will also make 
commensurate adjustments in the Reserve Components, with 69,500 Airmen 
in the Air Force Reserve and 106,700 Airmen in the Air National Guard. 
We will also grow our Civilian cadre to 179,152, which includes 4,200 
contractor-to-civilian conversions.
    Retaining quality Airmen with critical skill sets remains a top 
priority. For fiscal year 2010, we have proposed $641.4 million for 
retention bonuses and recruiting, which includes a $88.3 million 
increase for recruiting and retaining health professionals. In 
addition, we will retrain Airmen to fill undermanned career fields to 
balance and shape our force in accordance with emerging requirements. 
Further efforts to shape our force will also include diversity 
initiatives designed to leverage the unique qualities of all Airmen to 
achieve mission excellence.
            Warrior Care
    As part of our commitment to Airmen, we, in collaboration with the 
rest of the Department of Defense, are strengthening our focus on 
wounded warrior care. The importance of ensuring that our wounded 
warriors receive the service and support they need throughout the 
recovery process cannot be overstated. Through specific budget proposal 
items, such as increased funding to bolster the size of our Recovery 
Care Coordinators cadre, our wounded care programs will continue to 
provide our Airmen the best medical and professional support possible.
    Other advances in wounded warrior care are also underway including 
work with Interagency and local partners to create the necessary 
support networks to ensure success in continued military service or in 
the transition to civilian life. We are also reinforcing our commitment 
to our Air Force wounded warrior families through support programs 
specifically designed to help allay their burdens and honor their 
sacrifices.
Recapturing Acquisition Excellence
    To most effectively meet the demands of our warfighters, the Air 
Force has made Recapturing Acquisition Excellence a top priority. We 
recognize the profound importance of this capability, which enables us 
to acquire and recapitalize platforms that provide Global Vigilance, 
Reach, and Power. As stewards of the taxpayer's resources, the Air 
Force will solidify an Acquisition system that delivers the right 
capabilities to the warfighter in the field--on-time and within budget.
    To accomplish this we have published an Acquisition Improvement 
Plan (AIP) that outlines the steps we will take to improve Air Force 
Acquisition, informed by a series of internal and external reviews. 
This plan focuses on five initiatives that: revitalize the Air Force 
acquisition workforce; improve the requirements generation process; 
instill budget and financial discipline; improve Air Force major 
systems source selection; and establish clear lines of authority and 
accountability within acquisition organizations.
    Through this plan, the Air Force will focus on better developing 
our acquisition workforce to ensure that it is appropriately sized to 
perform essential, inherently governmental functions and flexible 
enough to meet continuously evolving demands. We will also work to 
develop requirements that meet the users' needs while, at the same 
time, ensuring that they can be incorporated into effective acquisition 
strategies that maximize competition and allow for a fair and open 
source selection process.
    Our reviews also emphasized that establishing adequate and stable 
budgets continues to be critical for program success. Therefore, the 
AIP emphasizes realistic budgeting based on comprehensive program cost 
estimates. Once budget baselines are established, achieving program 
stability and cost control will be given the same priority as technical 
performance and schedule.
    We also found some weaknesses in our procedures for large system 
acquisition source selections and shortages in the skill sets required 
to conduct major source selections. So we are going back to the basics; 
building processes to ensure that our personnel have the experience and 
training required to conduct source selections and, where necessary, 
revising our processes and policies and increasing our use of multi-
functional independent review teams (MIRTs). We are also reassessing 
our Program Executive Officer (PEO) and wing/group/squadron 
organizations to determine if they are properly structured, and 
identifying specific actions that could be taken to improve them.

                        READINESS AND RESOURCING

    In the past year, we have continued to see stresses on our Air 
Force, both in our people and in our platforms. The Air force has 
conducted nearly 61,000 sorties in Operation Iraqi Freedom and over 
37,000 sorties supporting Operation Enduring Freedom, delivering over 2 
million passengers and 700,000 tons of cargo. In doing so, Airmen 
averaged nearly 265 sorties per day. Tens of thousands of America's 
Airmen are deployed to locations across the globe, including 63 
locations in the Middle East. To support the efforts of our Airmen and 
provide for the recruiting and retention of the highest quality Air 
Force, our fiscal year 2010 budget proposal includes $28.6 billion in 
Military Personnel funding. It provides for an across the board 2.9 
percent pay increase, a Basic Allowance for Housing increase of 5.6 
percent--resulting in zero out-of-pocket housing expenses for our 
Airmen--and a Basic Allowance for Subsistence increase of 5 percent. 
Additionally it halts the end strength drawdown which allows for 
rebalancing of the total force to cover new and emerging missions and 
stabilizes the active component end strength at 331,700; Reserve 
Component end strength at 69,500 Airmen and Air National Guard end 
strength at 106,700 Airmen. It also funds recruiting and retention 
bonuses targeted at critical wartime skills, including key specialties 
such as command and control, public affairs, contracting, pararescue, 
security forces, civil engineering, explosive ordnance disposal, and 
special investigations.
    This high operations tempo requires focused attention on readiness. 
We use aircraft availability as our enterprise-level metric for 
monitoring fleet health, and the fiscal year 2010 budget proposal 
provides $43.4 billion in Operations and Maintenance funding, a $1.3 
billion increase over our fiscal year 2009 appropriation, to mitigate 
the stresses of continuous combat operations on our aircraft. The 
fiscal year 2010 Operations and Maintenance appropriation funds pay and 
benefits for 179,000 civilian personnel, including 4,200 contractor to 
civilian conversions, an increase of 200 civilian acquisition 
professionals and a 2 percent pay raise. It fully funds 1.4 million 
flying hours, produces 1,200 pilots and sustains over 5,400 aircraft 
while accelerating the retirement of roughly 250 aged aircraft, 
producing a smaller, more capable fighting force.
    Our aging air and space fleet requires focused attention. For 
example, we have grounded our F-15, F-16, A-10, C-130, and T-6 fleets 
for limited periods during the past 2 years. The skill and 
determination of our maintainers have ensured that we return aircraft 
to service as quickly as possible, but 2 percent of the fleet remains 
grounded and many aircraft fly restricted profiles. To ensure stable 
aircraft availability and mission capable rates, we continue to 
integrate Fleet Viability Boards into our normal life-cycle sustainment 
processes and strengthen centralized asset management.
    Additionally, in fiscal year 2010 O&M funds will be used to rebuild 
the nuclear infrastructure by fortifying operations, developing people 
and sustaining 76 B-52s for global strike capability. The AF is also 
increasing MQ-1 and MQ-9 ISR capability to 43 unmanned Command Air 
Patrols. The O&M budget request honors the AF commitment to our Airmen 
and their families by increasing child care availability and special 
programs for children of deployed parents, providing for both legal 
assistance and advanced educational opportunities. Dollars are also 
committed to dormitory initiatives, unaccompanied housing, active 
Warfighter/Family Support Centers and Fitness Centers while still 
providing for the operating expenses of 83 major installations 
including two space lift ranges.
    Our $19.4 billion fiscal year 2010 Budget proposal for Research, 
Development, Test and Evaluation (RDT&E) is an increase of $600 million 
from fiscal year 2009. This request funds requirements for next 
generation weapons and platforms by maturing technologies essential to 
equipping our Nation to defeat near-term and forecasted threats. We 
continue to develop and invest in future systems such as the KC-X 
Tanker program, F-35 Joint Strike Fighter, and the next enhancement of 
the Global Positioning System. Science and technology efforts advance 
propulsion, space-based airborne and ground sensors, directed energy, 
and command and control for both air and space. Modernizing our current 
fleet initiatives will provide upgrades to legacy fighters, bombers, 
strategic radar, and mobility requirements. Systems and technologies 
designed to improve space situational awareness are also critical 
elements of this Budget Request. Additionally we are rebalancing the 
portfolio towards procurement of proven and multi-role platforms.
    We are committed to supporting today's warfighter while building 
tomorrow's weapon systems capability. The fiscal year 2010 procurement 
budget request provides $21.7 billion to deliver immediate and future 
capabilities through investments made across four specific procurement 
appropriations: aircraft, missiles, ammunition, and other. The fiscal 
year 2010 Budget Request supports the Irregular Warfare Mission by 
increasing ISR platforms while modifying the existing fleet, provides 
joint warfighter support funding and balances investment in advanced 
aircraft platforms and legacy aircraft modifications. These funds will 
allow for the acquisition and modification of manned and unmanned 
aircraft, missiles, munitions, vehicles, electronic and 
telecommunications equipment, satellites and launch vehicles, and 
support equipment.
    Funding critical infrastructure projects while meeting the needs of 
the Air Family are critical to our mission. The $2.4 billion budget 
request for military construction, military family housing and base 
realignment and closure supports a $300 million increase in military 
construction from fiscal year 2009. Projects will be focused on 
supporting the rebalance of AF and DOD priorities. Additionally the 
budget request continues our emphasis on providing quality housing for 
Airmen and their families. Finally, the AF is on target to deliver 17 
BRAC 2005 projects on time while continuing the environmental clean-up 
of legacy BRAC locations.
    To ensure proper stewardship of our resourcing, we have designated 
a Deputy, Chief Management Officer (DCMO) in line with the Department 
of Defense Strategic Management Plan. The DCMO is responsible for 
continuing our momentum in refining internal processes for reducing 
workloads or eliminating unnecessary work. Through a culture of 
continuous improvement, we are further improving warfighter 
effectiveness through integrated processes and systems, process 
improvement, and technology investments aligned with our priorities.

                                SUMMARY

    We believe the Air Force's total proposed fiscal year 2010 budget 
of $160.5 billion--which includes $115.6 billion for Air Force managed 
programs, $28.9 billion in other funded programs such as the National 
Foreign Intelligence, Special Operation Forces, and the Defense Health 
Programs, and $16 billion in Overseas Contingency Operations provides 
the balance necessary to ensure support of today's commitments, while 
posturing the Air Force for success against tomorrow's challenges.

    Chairman Inouye. Now may I call upon General Schwartz?

            SUMMARY STATEMENT OF GENERAL NORTON A. SCHWARTZ

    General Schwartz. Mr. Chairman, Senator Cochran, and other 
members of the subcommittee, I am proud to be here with 
Secretary Donley, representing your Air Force.

                         AIR FORCE CORE VALUES

    The United States Air Force is committed to effective 
stewardship of the resources the American people place in our 
trust, a commitment founded on our core values of integrity 
first, service before self, and excellence in all we do. Guided 
by our core values, American airmen are all-in, working 
courageously every day with precision and reliability.
    I recently had a chance to take a trip and visit with some 
of our airmen performing at several locations around the world, 
and they are providing game-changing capabilities for the 
combatant commanders in the air and on the ground.
    Last year, American airmen conducted 61,000 sorties in 
Operation Iraqi Freedom (OIF), some 37,000 sorties in Operation 
Enduring Freedom (OEF), and that is about 265 sorties a day. 
Airmen also serve in convoys and in coalition operations 
centers and deliver 2 million passengers and some 700,000 tons 
of cargo in the United States Central Command (USCENTCOM) area 
of responsibility.
    And dedicated airmen directly support USCENTCOM operations 
from right here in the United States by providing command and 
control of unmanned aerial systems, while our nuclear 
operations professionals support the umbrella of deterrence for 
the Nation and our allies across the globe. And our space 
professionals are providing truly amazing capabilities, ranging 
from early warning to precise global positioning navigation and 
timing.

           BALANCING AIR FORCE PRIORITIES TO MEET CHALLENGES

    Through Secretary Donley's guidance and his leadership, we 
have set the course to provide even greater capabilities for 
America and to balance our priorities across and to meet the 
spectrum of challenges. The top priority is to reinvigorate the 
nuclear enterprise as outlined in our nuclear roadmap.
    We are fielding capabilities that allow us to innovate 
partnerships with joint and coalition teammates to win today's 
fight by expanding intelligence, surveillance, and 
reconnaissance with the procurement of 24 MQ-9 Reaper unmanned 
aerial systems.
    And at the same time, we will continue to support our most 
precious asset, our people. We are focused on providing 
programs that develop and care for our airmen and their 
families with world-class quality of service and honor our 
commitments that we all have made to our wounded warriors.
    Part of ensuring support for our airmen means providing the 
tools they need to do their jobs effectively. Therefore, we are 
modernizing our air and space inventories, organizations, and 
training with the right, if difficult, choices.
    In addition to the programs that Secretary Donley just 
mentioned, we are committed to providing a robust air refueling 
capability. We also intend to increase efficiency by retiring 
aging aircraft, and we will complete production of the F-22 at 
187 aircraft and the C-17 at 205 aircraft, subject to 
congressional approval.
    In recent testimony, Admiral Mullen stated that we are what 
we buy. Following his lead, we intend to maintain stewardship 
of America's resources for our warfighters in the field and our 
taxpayers at home by recapturing acquisition excellence and 
fielding the right capabilities for our Nation on time and 
within budget.
    Mr. Chairman, with our core values guiding us, the Air 
Force will continue to provide the best military advice and 
stewardship, delivering global vigilance, reach, and power for 
America.
    Thank you for your continued support of the United States 
Air Force, and particularly for our airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. I thank you very much.
    As both of you are well aware, this subcommittee has been 
deeply involved in recent weeks in what we call the 
supplemental appropriations process. It seems likely that this 
week, we will close the shop and sign the bill. And hopefully, 
we will have this matter sent to the White House.
    In all likelihood, this measure will include eight 
additional C-17s. It will have five additional C-130s and 
several other items. But I will leave those matters up to my 
colleagues who are experts in this area. But I would like to 
touch upon other items that may not be touched upon by my 
colleagues.

                           IRREGULAR WARFARE

    Secretary Gates has been speaking of irregular warfare as 
being just as important as traditional warfare. And in your 
proposal, you have requested funds to build this capability to 
carry out your mission in this irregular warfare.
    For the record, because many of my colleagues who are not 
on this subcommittee may not be familiar with what irregular 
warfare is all about, can you tell us what it is? And second, 
how you hope to build up the capability to involve yourself in 
this? General?
    General Schwartz. Mr. Chairman, irregular warfare is--I 
would describe it as something different than the traditional 
confrontation of major maneuver units on the battlefield.
    It is a distributed battle. It involves high concentrations 
of civilian populations. It involves having to exert governance 
and control in the battlespace in a way that might not 
typically be the case in more conventional employment of our 
forces. And significantly, I think it requires a level of 
precision that perhaps is, again, not as needed in sort of 
traditional force-on-force engagements.
    Now our basic approach to this is, again, not just for the 
Air Force, but rather recognition that this kind of employment 
requires a joint team that is very well integrated and can 
employ forces across the spectrum.
    So that includes, for us, things all the way from lift and 
transportation to strike, very precision strike, and just as 
importantly as intelligence, surveillance, and reconnaissance 
capability because that is--intelligence is a key factor in 
success in this domain. And likewise, a whole range of skills 
that are required to build partner capacity.
    So, for example, while the traditional aspect of training 
others depend on aircrew skills, it is much, much broader than 
that now and includes how do you run an airfield? How do you 
operate a safety shop? How do you maintain a runway? How do you 
maintain a budget?
    These are things that are necessary for nascent air forces 
to achieve a capability to serve their nations well and 
effectively. And typically, they are not as sophisticated as we 
are and certainly don't have the benefit of the resources that 
you all put at our disposal.
    And so, it means in terms of equipage perhaps having things 
that allow us to train others on that is something that they 
might be able to employ. It is not so sophisticated it can't be 
maintained or so sophisticated that perhaps it is beyond the 
natural ability of a growing, maturing Air Force.
    I guess I would finally conclude, sir, by indicating that 
this is an area that requires skills that, as I was growing up, 
were not sufficiently appreciated--language and the capacity to 
interact with other cultures and appreciate that how we sit, 
how we present ourselves, how we interact with elders matters a 
lot in terms of our ultimate success. That is how I would 
capture it for you, sir.
    Chairman Inouye. Mr. Secretary, do you have anything to add 
to that?

        EFFECTIVE USE OF FORCES ACROSS THE SPECTRUM OF CONFLICT

    Mr. Donley. I think the chief has captured it very well. I 
would also add I think, as we have approached our role in 
helping to train the emerging Afghan and Iraqi air forces, we 
are learning some good lessons along the way.
    I think the Secretary's challenge to us is not just to 
improve our irregular warfare (IW) capability in specialized 
areas that we are all familiar with in the special operations 
forces (SOF). And we have additional resources put against our 
SOF forces, additional investments that are well understood by 
the subcommittee. The CV-22 is coming online, MC-130s. These 
kinds of capabilities will continue to be improved.
    But what the Secretary is asking us to do is to think about 
how to use our general purpose forces more effectively in the 
irregular warfare part of the conflict spectrum. He has not 
asked us to fundamentally overhaul the capabilities of the 
United States Air Force or the other services, which are 
required to meet the full range of potential contingencies 
across the conflict spectrum, all the way from irregular, all 
the way up through high-intensity operations. And of course, we 
have the nuclear deterrent mission as well in the Air Force.
    He is asking us to figure out ways to use the bulk of our 
forces, which are deployed across this conflict spectrum, 
figure out ways to be able to tailor those capabilities more 
effectively for IW work. So, as the chief has, I think, laid 
out pretty well, our issues are focused on how do we use our 
education and training system and our support for other nations 
to build up their capabilities more effectively?
    And we are seeing that come through in a couple of 
different areas. One is, for example, the JCA, the C-27, which 
our Department has been working on. That mission, as you know, 
is transferring from the Army to the Air Force.
    But a light mobility aircraft such as this is of interest 
and is of use potentially to partners like Iraq and Afghanistan 
that may or may not have a C-130 kind of capability. Or if they 
do, it will be fairly circumscribed. They certainly won't be in 
the C-17 business, for example.
    So we think having a capability like this in the United 
States Air Force makes us better teachers for potential 
partners who are not going to be buying JSFs or C-17s, the 
high-end capabilities that we will produce. So we see that in 
mobility, in the C-27. We see it also in the intelligence, 
surveillance, and reconnaissance (ISR) platforms, in the MC-12 
capability that we are building that might, in the future, have 
some applicability.
    That small, twin-engine airframe has applicability for 
partners who cannot afford and will not be in the unmanned 
aerial systems business and will not have thousands of 
personnel in their intelligence, surveillance, and 
reconnaissance systems. But, yes, they may be able to operate 
that MC-12-like capability going forward to give them an ISR 
capability.

                           TRAINING AIRCRAFT

    And the third area is in our trainers, which, consistent 
with past practice, are often able to evolve from a training 
aircraft to a light attack aircraft, and there are different 
options for how to do this.
    So certainly in our T-6 trainer programs, there are 
opportunities going forward to make T-6 and/or Super Tucano or 
propeller-driven airplanes of this class into light attack 
aircraft that could be utilized by partners again who are not 
going to be able to and do not have a need to operate at that 
higher end of the conflict spectrum. They can't afford to do 
that.
    So having these capabilities inside our force structure we 
think will help us be better teachers and better partners and 
help us build up the security capabilities of partners facing 
counterterrorist operations, counterinsurgency operations whom 
we have an interest in building up to be not only better 
partners for us internationally, but to be good regional 
partners and able to take care of their own neighborhoods.
    I apologize for the lengthy answer, but this is a good 
question.

                         24TH AIR FORCE MISSION

    Chairman Inouye. Well, the Secretary said, it is just as 
important as traditional warfare. Your 24th Air Force is going 
to be a focal point for cyber warfare. Can you tell us what you 
have in mind to carry out this mission, Mr. Secretary?
    Mr. Donley. Well, sir, I will let the chief discuss it in 
more detail, but in general, we have information operation 
wings and network warfare wings and network operations 
capabilities that are responsible for taking care of Air Force 
networks, for defending them against cyber threats, which are 
growing and are at increasing risk. And so, we are growing this 
capability in the Air Force.
    We made a decision last fall to put those capabilities 
under a numbered Air Force, which is our operational level 
inside the Air Force, to more effectively manage and oversee 
this work.
    Chairman Inouye. General?
    General Schwartz. Mr. Chairman, just to emphasize, the 
thrust here is on two basic themes within what really is 
emerging as a contested domain. And that is, one, as the 
Secretary mentioned, to defend ourselves, to defend our nets 
because, increasingly, these networks are not just 
administrative conveniences, but they are, in fact, the way 
that we bring the integration of the magnitude of all of our 
capabilities to bear and command and control them in real time.
    So defending our nets is vital to our combat capability, 
and that is a major function for the 24th Air Force. As well, 
there are more offensive kinds of capabilities here. For 
example, one can envision that it might be prudent to disable 
an integrated air defense array that we might want to penetrate 
by use of cyber rather than kinetic means, or some mix of the 
two. And advancing our capabilities in this regard will also be 
within the portfolio of the 24th Air Force.
    I would conclude, sir, by indicating that, as you know, the 
President announced a cyber initiative last week. As part of 
that, there will likely be an organizational realignment within 
the Department of Defense. And the 24th will be the Air Force 
contribution to that larger enterprise for the entire 
Department.
    Chairman Inouye. Thank you.
    Senator Cochran.

     AIR FORCE NONTRADITIONAL SUPPORT TO ARMY AND COALITION FORCES

    Senator Cochran. Mr. Chairman, thank you.
    General Schwartz, I understand that the Air Force has 
established as one of its top priorities greater support for 
the Army and coalition forces overseas in nontraditional Air 
Force missions on the ground. Could you give us some examples 
of this activity and the impact that that may be having in 
terms of your overall end strength?
    Is it going to require you to reorganize or ask for more 
authority from the Congress to continue to carry out this 
mission?
    General Schwartz. Sir, the proposal, which is embedded 
within this fiscal year 2010 program proposal at 331,700 active 
duty end strength, is where we need to be, and I don't see us 
climbing much higher than that, if at all.
    With regard to the so-called nontraditional tasks, our 
sense is and the leadership of our Air Force acknowledges, 
recognizes the country is at war, and that there are needs at 
this time that need to be fulfilled. They are requirements that 
the joint team needs to have accomplished.
    And if your Air Force can do this, if we can make a 
contribution, that is what we are going to do. We will do 
whatever is required, wherever it is needed, for however long 
it is needed, provided that our youngsters are properly 
trained. That is our obligation.
    And so, sir, we have folks that are doing convoy duty in 
Iraq. I visited with some at Arifjan a couple of months ago, 
and believe me, these folks do not see what they are doing as 
peripheral or not worthy. They know very well how important the 
work they are doing is.
    And that is true whether it is medics or transportation 
folks or security forces operating outside the fence, whatever 
the discipline. It is needed. It is part of the joint effort, 
and our Air Force is proud to do it, sir.
    Senator Cochran. Well, I compliment you for the initiative 
and showing flexibility of responding to something that is 
clearly needed and in our national interest. And we hope we 
will be able to provide the resources that you need to carry 
out these important activities.

         HIRING OF GOVERNMENT CIVILIANS TO REPLACE CONTRACTORS

    Secretary Donley, I understand the Air Force intends to 
reduce its reliance on contracted workers by hiring several 
thousand Government civilians to replace contractors. Has the 
Air Force identified what positions or functions it intends to 
resource from within your organization, and what savings, if 
any, do you anticipate through this initiative?
    Mr. Donley. Sir, this is a DOD wide initiative, and a very 
important one. I believe there is a strong consensus in the 
Department and I believe also here in Congress that the 
reliance of the Department on contractors to do some work that 
was previously done within the Government has probably run its 
course, and the pendulum is starting to swing back the other 
way.
    We are much more sensitized at this point to the need to 
bring back into the organic Government capability some of those 
functions that have been contracted out. And our target for 
fiscal year 2010, as I recall it, is about 4,000 of these 
conversions.
    Almost about 2,000, about one-half of that is targeted for 
us on our acquisition workforce and growing our acquisition 
workforce in some critical areas that need reinforcement--
contracting, systems engineering, and cost estimating. These 
are examples of capabilities we plan to beef up by relying less 
on contractor support and bringing those capabilities in-house.
    Senator Cochran. As you know, we have a very large training 
facility on the Mississippi gulf coast at Keesler Air Force 
Base and very proud of the role that they have played over the 
years in our national defense. They are currently hosting the 
81st Training Wing. I think it is the largest technical 
training unit and is a so-called ``center of excellence'' for 
computer and electronics training.
    Anyway, I am going to put in the record some facts and 
figures that I understand are currently reflected in the hiring 
and the activities there. But they are being tasked now with 
developing infrastructure capacity to potentially host a new 
mission, the undergraduate cyber training mission for the Air 
Force.

          COMMUNICATIONS AND ELECTRONICS CENTER OF EXCELLENCE

    I wonder, General, if you have taken a role in this or have 
any information that you can give us about this possibility of 
a new center of excellence for electronics and computer-related 
training at Keesler?
    General Schwartz. Sir, as you know, Keesler Air Force Base 
has been for decades the center of excellence for training our 
entry-level communications and electronics specialists. And a 
natural extension of that could very well be the training of 
the workforce that 24th Air Force will employ in this 
increasingly digital and cyber era.
    That decision has not been formally taken where that 
element will go, but clearly, Keesler Air Force Base is a very 
strong candidate, and we will have a range of courses from 
entry level on the cyber side to, obviously, what we call 5 and 
7 level courses, increasingly more demanding courses, so that 
our people have the breadth and background required to do this 
work.
    That is an important piece of the 24th, too. My focus 
naturally was on operations, but you have to make sure that the 
workforce has the skills necessary to do this. And that is the 
task that we are focused on, sir.
    Senator Cochran. Well, thank you very much. And thank you 
for your excellent leadership in the roles that you have. We 
appreciate it.
    Chairman Inouye. Thank you.
    Senator Bond.

                    NEXT GENERATION FIGHTER AIRCRAFT

    Senator Bond. Thank you very much, Mr. Chairman.
    As I mentioned earlier, General Schwartz, I have some very 
real concerns about the intermediate term plans and, to be 
honest, what I see as a lack of intermediate plans.
    I said that right now we have available proven platforms 
that have about an 85 percent solution. They are not fifth 
generation, but they are 4.8, 4.9, and you, yourself, mentioned 
the ability of externalities to enable some of those fourth 
generations to do things that one would have expected we could 
only achieve with the fifth generation. We won't go into that 
here, but we have discussed that previously.
    And so, I am asking if you and the Secretary would be 
willing to take a look at the outstanding shortfall in the Air 
National Guard and the Air Sovereignty Alert mission, as well 
as the other needs in the Air Force? To determine whether there 
are fourth-plus generations of planes that will be needed that 
are affordable and that will be available unless and until the 
JSF or the F-35 is able to get online, which, at this point, 
having only completed, as I understand, 2 percent of its flight 
tests, may be some time.
    General Schwartz. Senator, as we have exchanged in the 
past, there is nothing off the table. I certainly am willing to 
revisit the formula and our positions that we have developed, 
as new information comes in. It would be foolish to do 
otherwise. And in fact, we met as recently as yesterday on this 
issue with Lieutenant General Harry (Bud) Wyatt from the Air 
National Guard and others.
    Senator Bond. I understand. I am well aware of that, well 
aware of those discussions. I am not going to bring out the 
chart or anything like that because I know the discussions.
    General Schwartz. Right. Yes, sir. But I think that is what 
I would like to do, it is still my view that the high 
confidence path for us is to make the leap to the F-35. That 
is--it will populate the preponderance of our force as we go 
forward.
    And the vital thing here is that in order for the F-35 to 
do the work that is required not just for us, but for the 
Marine Corps, for the Navy, and importantly, international 
partners, the F-35 needs to be produced at rates which will 
help us manage our fleet aging issue that you mentioned, not 
less than 80 and probably higher, maybe as high as 110 a year.
    And the other not insignificant benefit is to keep the 
average unit cost down for F-35 so that it can compete 
internationally.
    Senator Bond. As we know, it is already--our international 
partners have already made the decision. The other broader 
question that needs to be considered is the aircraft industrial 
base.
    Earlier this week, Secretary Mabus said they need to 
maintain a competitive shipbuilding base. Right now, we know we 
have gone from five or six primary aircraft producers down to 
two. And this budget annihilates one of those two. If this 
budget were carried out, we would be down to one.
    And quite frankly, I ask you to look at the performance, 
the timeliness, the performance and the cost to see whether you 
would be comfortable going down to one, and I think there is a 
very good argument not to go down to one. And I just ask you to 
look at that.
    General Schwartz. You have my commitment to do so, sir.

                         NEXT-GENERATION BOMBER

    Senator Bond. Next-generation bomber is part of that. 
Actually, the next-generation bomber and the sixth generation 
fighter have to be competed. They have to bring in these 
others, and the next-generation bomber was designed to force 
our adversaries to invest in their own defensive weapons.
    Current bombers are having increasing access challenges. 
The warfighters analysis of alternatives completed in 2006 said 
that they were very comfortable with the NGB. The Center for 
Strategic and Budgetary Analysis replied to a question on NGB 
saying we have studied the NGB issue to death. The need, the 
requirement, and the technology are in hand and reasonably well 
understand.
    And I believe Secretary Gates last week said, ``My personal 
view is that we probably do need a follow-on bomber.''
    I would ask you, Mr. Secretary and General, whether it is 
time to be moving forward, looking at the industrial base as 
well as the need for the NGB?
    Mr. Donley. Well, Senator, I think there is pretty good 
consensus that our national defense capabilities need to 
include more long-range strike and that we need to start 
modernizing that part of our force structure.
    My sense is that the Secretary's decision in this regard 
earlier this year was based on the fact that we did not quite 
have all of the parameters of this capability locked down. I 
will let the chief talk to those in more detail.
    So we made a decision to cancel the program that we had 
laid in. I do think we will need to return to this issue in the 
QDR. I do think there needs to be a good, thorough discussion 
about the attributes of the long-range strike capability we 
need. Its relationship to the Nuclear Posture Review is going 
to be very important. Obviously, that had not played out yet 
earlier this year.
    So I think the Secretary, as he has indicated, will be open 
to further discussion.

                     RETIRING OBSOLESCENT AIRCRAFT

    Senator Bond. Well, we will look forward to discussing that 
with you. I won't take up the time of my colleagues here.
    One final question. You are talking about the C-5. General 
Schwartz, you mentioned retiring obsolescent aircraft. I know 
you are constrained by congressional mandate not to retire 
those C-5s, some of which, not all of which, may be a very 
uneconomical way. Modernization isn't going to cut the mustard.
    Should we be revisiting that to give the Air Force more 
flexibility to save costs by retiring inefficient, outmoded 
aircraft that will not meet the current needs so you can put it 
into other areas?
    General Schwartz. Senator Bond, too much aluminum is almost 
as bad as not enough. And as the Secretary indicated earlier, 
316 tails is about the sweet spot right now. And if it is the 
decision to have the Air Force take on additional C-17s, it 
makes sense to begin to alter the fleet mix in a way that 
maintains that top line. So, yes, retiring older, less reliable 
C-5As certainly makes sense in the context if we go above 205 
C-17s.
    And sir, if I may take one minute perhaps of your privilege 
just to address the bomber briefly, your earlier question? This 
is important. Long-range strike is an essential capability for 
the Nation.
    As the Secretary indicated, we weren't quite together with 
the Secretary of Defense on how we define this thing. What is 
the range? What is the payload? Is it supersonic? Is it 
subsonic? Is it manned? Is it unmanned? Is it nuclear, non-
nuclear? Is it low observable, very low observable? These are 
the parameters we need to get together with the Secretary on.
    There is an unfunded request that we have come forward with 
that addresses this to keep a concept development activity 
going so that we can answer these questions, as well as to keep 
certain technology efforts underway that apply regardless of 
how we define the platform. These are antennas, low observable 
antennas. These are data links. These are radars. Stuff like 
that.
    Senator Bond. These have application to others across the 
fleet, not just long strike?
    General Schwartz. They do. Yes, sir. Thank you, sir.
    Senator Bond. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                           TANKER ACQUISITION

    It has been my long-held belief that our military should 
procure the most capable tanker possible for our airmen using a 
fair, open, and transparent acquisition process. In separate 
discussions with both Defense Secretary Robert Gates and 
Acquisition Chief Dr. Ashton Carter, they assured me that this 
would be the case. Do you both agree?
    Mr. Donley. We do, sir.
    Senator Shelby. Okay. This process, I believe, should also 
utilize a best value method that does not contain an option 
based purely on lowest cost. I will closely follow, as this 
subcommittee will, the procurement process to ensure that our 
men and women in uniform receive the best equipment possible.
    Secretary Donley, the Air Force tanker competition is 
scheduled to begin later this summer with the release of the 
request for proposal. There has been some discussion that a 
lowest price technically acceptable process could be utilized 
in the competition. I have concerns with this acquisition 
method because it clearly would not reach everyone's stated 
objective, that is, that the Air Force procures the best tanker 
for our warfighters.
    Mr. Secretary, is it your belief that our pilots should fly 
the best, most capable tanker possible and not just the 
cheapest?
    Mr. Donley. Sir, we always--we always balance capability 
and cost----
    Senator Shelby. Right.
    Mr. Donley [continuing]. In our acquisition process.
    Senator Shelby. You have got to balance it.
    Mr. Donley. We will continue to do that going forward. We 
are working on the acquisition strategy for KC-X right now at 
the senior levels in the Department, and we are committed to 
sharing with the Congress the results of our work when the 
Secretary has made a decision exactly how to proceed.
    Senator Shelby. General Schwartz, I know there has been 
some concerns about protecting, and should be, about the 
industrial base as the tanker competition moves forward. We are 
all concerned about jobs in the United States.
    I believe any assertion that the Northrop Grumman tanker 
program steals jobs from American aerospace workers and sends 
them overseas is factually incorrect. By assembling the 
Northrop tanker in a new aircraft assembly and militarization 
facility, this proposal would create almost 50,000 new jobs in 
50 States and comply with all current procurement laws in the 
Buy American Act.
    Do you agree that given the vast quantity of jobs that 
would be created in selecting either Northrop Grumman or Boeing 
as the winner, it would have a positive impact on our Nation's 
industrial base? Either one.
    General Schwartz. Senator, as you are well aware, my role 
is to define requirements----
    Senator Shelby. That is right.
    General Schwartz [continuing]. And so on. Clearly, as 
others have suggested, what we want is to get the best possible 
airplane as quickly as we possibly can. And so, I, frankly, am 
agnostic about how this exactly gets done, provided we get on 
with it. And that is what I certainly have offered my 
Secretary, as well as the Secretary of Defense, is my best 
advice.
    Senator Shelby. Thank you.

                        UNMANNED AERIAL VEHICLES

    Mr. Secretary, if I could do a little transition to the 
UAVs. I know you are working with the Army and the other 
services to develop a UAV acquisition roadmap. While I 
understand the benefits for the services to work together on 
this vital issue--I think it is important to do so--I have 
stated the importance of the Army retaining tactical control of 
their UAVs.
    Do you feel that you can continue to work together with the 
Army, Navy, and Marine Corps to allow them continued control of 
the tactical assets that are so critically important to our 
troops on the ground and commanders in the field, especially as 
we move forward through the QDR?
    Mr. Donley. Senator, these are very important capabilities 
that are being developed for our defense establishment. I will 
let the chief address the operational piece of this, but let me 
just say at the DOD level, we do cross-level and look very 
carefully at production capacity and how that is spread across 
different platforms, Predators versus Reapers, and other 
classes of UAVs.
    And that is well balanced at the DOD level in terms of who 
is investing how much where to get the best balance across the 
services when we put together the budget.
    Senator Shelby. General Schwartz, do you have any comment?
    General Schwartz. Yes, sir. Senator Shelby, what General 
George Casey, the Army Chief of Staff, and I want is what works 
best, and whatever the division of labor is, is a very 
pragmatic call. And there is no emphasis within the Air Force 
of trying to assert ownership. This is a question of how one 
can best employ the fleet.
    Now the reality is, is that, for example, unmanned systems, 
you have to take account for them in the airspace. You don't 
want airplanes running together, so on and so forth. If you 
have an air defense situation, you have got to know who is 
friendly and who is not. So there is a need for a level of 
coordination that must continue, regardless of who is operating 
the platform.
    Senator Shelby. Absolutely.
    General Schwartz. But the bottom line is that you should 
have little concern about whether the Army and the Air Force 
can collaborate on this. We can, and we are.
    Senator Shelby. And the marines and Navy, too?
    General Schwartz. Of course. Yes, sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    I have been at a markup of the Energy Committee. So I am 
sorry I have been delayed.
    General Schwartz and Secretary Donley, welcome.
    I want to ask about the UAV and UAS issues. My 
understanding is that you plan to go from 34 Predator/Reaper 
combat air patrols to about 50 by the end of 2011. Have you 
decided where you might assign additional units of personnel to 
operate that many additional combat air patrol units?
    General Schwartz. Senator, we have not done specific 
assignment of those assets, which will be coming on down the 
road. Those which are coming on in fiscal year 2010, we have a 
much firmer idea. Those beyond are not quite as firm at this 
time.

                       C-27 JOINT CARGO AIRCRAFT

    Senator Dorgan. All right. What is the status of the C-27 
joint cargo aircraft program?
    General Schwartz. Sir, let me start big on that, if I may, 
and then get small. At the strategic level, what this is is a 
question about who will do the direct support mission for the 
ground forces in the United States Army in particular? The Air 
Force traditionally does general support very well. As the 
Secretary of Defense has commented, it is sort of like running 
an airline, and you do it to both accomplish the tasks 
assigned, but to do it as efficiently as possible.
    On the other hand, there is a different model which is a 
direct support model, which means that certain assets are 
dedicated to certain commanders or maneuver units, maybe not 
quite as efficient, but improves the reliability of that 
service to that particular organization or commander.
    And what General George Casey, the Chief of Staff of the 
Army, and I have agreed is that the United States Air Force, if 
the decision is that the C-27 should migrate to the United 
States Air Force, we will do the direct support mission of the 
United States Army the way they think it needs to be done. And 
that is a commitment.
    Now with respect to the program, the Secretary of Defense 
made a decision. It is not an instantaneous change. The Army is 
currently in charge of the program, has a program office. We 
have Air Force people assigned there. We will increase that 
number of Air Force people assigned or attached. And so, there 
will be a migration of the program management responsibility 
over about a year's time from the Army to the Air Force.
    And a significant mark on the wall is the deployment of 
four aircraft to United States Central Command later in fiscal 
year 2010. That is driving us in terms of how we make the 
transition to make sure that we have got aircrews and 
maintainers and so on who can operate these aircraft forward.
    Frankly, it might be a mix of Army and Air Force for that 
first deployment. That is not a problem, I don't think. But 
ultimately, we will incorporate the C-27 mission into the Air 
Force and provide the capabilities to the Army that they need 
and want.

                       RECRUITMENT AND RETENTION

    Senator Dorgan. What kind of experience are you having with 
recruitment and retention?
    General Schwartz. Senator, we actually are in pretty good 
shape. Arguably, the economy is an asset in this regard in 
terms of recruiting, and retention has been good. In the 
noncommissioned officer (NCO) ranks, there is a little bit of 
softness, not something to be alarmed about. But a little bit 
of softness in the middle-grade NCOs, and we are watching that 
carefully.
    In both officer and NCO recruitment and retention, we have 
difficulty in the medical career fields. There is keen 
competition for medical professionals, nurses, physicians, and 
so on. And that is an area where we have increased bonuses up 
to I think $88 million in the 2010 program in order to try to 
compete better to bring medical professionals into our Air 
Force.

          B-52 SQUADRON AT MINOT AIR FORCE BASE, NORTH DAKOTA

    Senator Dorgan. Just two other questions, if I still have 
time? What is your status with respect to standing up the new 
B-52 squadron at Minot Air Force Base?
    General Schwartz. On track, sir. And that is part of our 
nuclear roadmap to do that, and it is on schedule, on track.

         AIR FORCE ACTIVITY IN USCENTCOM AREA OF RESPONSIBILITY

    Senator Dorgan. And could you just give the subcommittee a 
general description of the Air Force presence and activities in 
the war theaters of Iraq and Afghanistan so we get a sense of 
assets and personnel and so on?
    General Schwartz. Yes, sir. Of the 38,000 roughly folks 
that we have deployed overseas, about 30,000 of those personnel 
are in Iraq and Afghanistan or in the adjacent spaces. Of that, 
about 8,000 are Reservists, 5,000 Air National Guard, 3,000 Air 
Force Reserve. And they are performing a range of missions, 
certainly from lift to strike to intelligence, surveillance, 
and reconnaissance.
    We run the hospitals at both Bagram Air Base and Balad Air 
Base on behalf of the joint team. We have, as I mentioned 
earlier, some of our youngsters performing convoy duties from 
Kuwait into Iraq, security forces, engineers, the whole array. 
It is a significant commitment.
    We will grow in Afghanistan from about 5,000 today to maybe 
6,500 total Air Force personnel as the numbers increase in 
theater. It is a significant commitment and one we do proudly.
    Senator Dorgan. Well, let me thank you, Secretary Donley, 
and you, General Schwartz, for your willingness to be always 
available to us. And I would like to send you some additional 
questions on the C-27 and the combat air patrol future. So I 
will submit those questions.
    And again, let me thank both of you for the work you do. I 
am very pleased.
    Chairman Inouye. Thank you very much.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

       HILL AIR FORCE BASE AND ICBM SOLID ROCKET INDUSTRIAL BASE

    And I want to say to our two witnesses thank you for coming 
to Utah and for the experience you had. I hope the weather was 
good enough for you and the hospitality, et cetera. We 
appreciated your being there. They were there for the Air Force 
Association meetings last week.
    I trust I can be forgiven for being a little parochial and 
discuss some of the issues relating to Hill Air Force Base and 
also the intercontinental ballistic missile (ICBM) solid rocket 
industrial base. On that latter issue, let me thank you for the 
news that I have received that the Air Force is going to 
maintain the solid rocket motor industrial base that supports 
the Minuteman III. What is the status of your request to 
reprogram fiscal 2009 funds?
    Mr. Donley. Yes, sir. We do intend to request reprogramming 
just to beef up this program. The Department is looking at the 
reprogramming right now, awaiting first the results of the 
overseas contingency operations (OCO) work that the chairman 
referred to earlier. So once we have seen the results of the 
OCO, then the Department will proceed with its reprogramming 
work.
    Senator Bennett. Do you have any idea how many solid rocket 
motors you are planning to buy?
    Mr. Donley. Off the top of my head, I do not have that 
information. But we will get you that for the record.
    Senator Bennett. Okay. Thank you. Thank you very much.
    [The information follows:]

    The intent of the warm line is to exercise industry's 
Minuteman III-unique solid rocket motor production 
capabilities. Identifying a specific number of solid rocket 
motors is not an accurate measure of the ability to maintain 
this industrial base. Our fiscal year 2010 effort will initiate 
a low-rate production of the Minuteman solid rocket motors 
which will maintain design-unique material availability, sub-
tier material supplier viability, touch labor currency, and 
design engineering personnel continuity unique to the Minuteman 
weapon system. In addition, our fiscal year 2010 effort will 
maintain systems engineering assessment capability and utilize 
independent verification of production processes. However, the 
actual production quantities are unknown until the contract is 
finalized.

              F-16 REDUCTIONS AT HILL AIR FORCE BASE, UTAH

    Senator Bennett. Now I want to talk about what appears to 
be something of a donut hole on the fighter situation. 
Naturally, we are disappointed to learn that Hill is going to 
lose one of its three F-16 fighter squadrons as a part of the 
restructuring, and I understand the restructuring has to go 
forward and that there are logical reasons for it. But as I 
look at the locations where the F-16s are going to be removed 
around the country, they seem to be focused primarily in bases 
in the intermountain and southwest regions, and that will be 
geographically the area where you will see most of the F-16s 
withdrawn. And yet the Utah Test and Training Range (UTTR) is 
most accessible to those regions, and it seems to me that it 
would make most sense to take the aircraft away from something 
that is farther away from the Utah Test and Training Range.
    I know Senator Cochran is very proud of the training range 
in Mississippi, but UTTR is the biggest land-based training 
range we have and, I think, a major, major asset to the Air 
Force. So has any thought been given to the fact that it might 
make more sense to keep the airplanes closer to the training 
range and take the reductions perhaps someplace else?
    General Schwartz. Senator Bennett, we have given thought to 
an array of considerations. The model of aircraft, their age, 
the proximity to training opportunities, the arrangements 
related to total force initiatives, and so on and so forth at 
various locations. Just to give you a sense, the rough 
reductions were predominantly in the training area. Air Combat 
Command took substantially less reductions than did our Air 
Education and Training Command.
    The bottom line is that we have looked at that. It is true 
that Hill Air Force Base is a candidate to lose 24 F-16s. That 
is--from a people point of view, sir, that is 591 spaces. We 
know that is not trivial.
    But we have looked at this as a package. And yes, Tucson 
will lose some airplanes, largely training platforms. Hill Air 
Force Base will take some down. There are roughly--the split is 
some overseas, some in Europe, some in the Pacific, a number 
here in the continental United States.
    But I think the key thing here is that we have done this 
from a fleet management point of view, from a construct which 
suggests that if we do this now, it will allow us to leap to F-
35 more rapidly and that we need to look to the future and less 
to the past.
    Senator Bennett. All right. That brings up the donut hole I 
am talking about because you are going to combine the 388th and 
the 419th, merge them as a prototype for further efforts to mix 
active and Reserve fighters, and that is an effort that has 
seen good results so far.
    But the impact on the depot is that they are going to see 
not just the 500 people you are talking about, but you are 
going to see a significant drop in depot work. And it is fine 
to say, well, the F-35 will come in at some particular point, 
but if that particular point is stretched out, you then lose--
we are back to the question of manufacturing base. Only in this 
case, it is maintenance base. You lose the expertise that is 
there that could be maintained if there were some way to deal 
with the question of the F-16s.

                              F-35 BASING

    Now it has been over 1\1/2\ years, the other side of the 
donut hole, stretching it out, that I have been told that Hill 
would be one of the first Air Force bases to receive an 
operational F-35 squadron. And now I understand that there is 
some backing away from that commitment, at least on the timing.
    So do you still say that Hill is going to receive one of 
the first two operational F-35 squadrons? And if so, can you 
give me some hope that it will come sooner rather than later so 
that the donut hole can be filled with work?
    General Schwartz. Senator, I can't. I can't tell you it 
will be the first. We haven't made that decision yet. And one 
thing that the Secretary and I have tried very hard to do is 
not to make promises we can't keep. And so, I am being 
straight.
    Senator Bennett. Sure. Obviously, we prefer that.
    General Schwartz. Understood, sir. I think, just to give 
you a sense of what is at play here, there are multiple demands 
on the new system, as you can well imagine. There are--our 
commander in the Pacific Air Forces and certainly Admiral 
Keating at United States Pacific Command (USPACOM) has levied a 
demand signal for modernization in the Pacific with regard to 
potential threats on the Asia-Pacific rim.
    Likewise, General John Craddock and the United States 
European Command has indicated that because the allies will 
gain F-35s in Europe, there will be a need for us to have F-35 
presence or we will be out of sync with our allies on the 
European continent. And likewise, we know very well that we 
have needs--donut holes, if you will--in the United States.
    So there are a lot of moving parts on this. The bottom line 
is that, and I am not saying anything that I don't think 
anybody believes, Hill Air Force Base is a great place to fly 
airplanes. And that is well known, and that certainly will be 
factored into basing decisions as we sort of integrate all of 
these demand signals.
    Senator Bennett. Well, I thank you for that. And it is not 
just a great place to fly airplanes. It is a great place to 
repair airplanes. And my concern is that if we see the 
workforce on the repair side, on the depot side drop down 
because of the action with respect to the F-16 and then a delay 
in bringing in the F-35, we wake up to discover that the 
capacity that we have always identified with Hill suddenly 
isn't there. Well, not suddenly isn't there, but isn't there.
    So I would ask you to take a look at that and say is there 
any way we can kind of nudge both of these, that is, nudge the 
F-16 in one way to close that end of the donut hole and nudge 
the F-35 in the other way to close that end of the donut hole? 
Yes, it is parochial on my part, but I also think it makes 
sense for the Air Force's capability to service the F-35 when 
the time comes.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much for 
having this hearing.
    General Schwartz, Secretary Donley, thank you to both of 
you. It is good to see you again. Let me just start by saying 
thank you to all the work you and the men and women serving in 
the Air Force do today to successfully perform the very 
critical missions that they are doing to safeguard our country.

                 TANKER COMPETITION AND INDUSTRIAL BASE

    It is really important to me that our airmen have 
everything they need to fight our wars overseas, both today and 
in the future. So I am going to start my questions today with a 
shocker. What can you tell me about tankers?
    But before I do that, let me just frame that question about 
the upcoming tanker competition from the standpoint of our 
domestic industrial base. Mr. Chairman, I am very worried about 
our domestic industrial base. I am worried about its long-term 
ability to provide our military forces with what they need to 
accomplish their national security missions.
    During last year's KC-X competition, everybody had real 
high hopes that it was going to be the best and brightest 
example of how the acquisition process could function and 
provide for the needs of our warfighters. Here we are today 
without a much-needed replacement of our aging fleet of 
refueling tankers.
    Now I applaud the work of Chairman Levin and Senator 
McCain. They have championed efforts here to move acquisition 
reform through Congress. As part of that, I included a 
provision that requires DOD to report on the effects that 
canceling an acquisition program would have on our Nation's 
industrial base.
    I have talked with both Secretary Gates and Secretary 
Carter about this issue. I want to make sure that we maintain a 
domestic industrial base that can respond to the ongoing need 
of our warfighters.
    This is of particular concern to me as a Senator from a 
State that represents really the entire spectrum of 
constituencies on this issue. One end of the scale, we have end 
users who are the servicemembers at many military facilities in 
Washington State. We have two outstanding Air Force bases, 
Fairchild and McChord, who rely on the goods and services this 
industry produces. At the other end, we have the hard-working 
men and women of the industry, including the smallest supplier 
companies to the major manufacturers that tirelessly work to 
support our servicemembers.
    So how we move forward with this acquisition is very 
important to me and to everyone I represent. General Schwartz, 
so I would like to ask you today how you are taking into 
account the health and longevity of our domestic industrial 
base as you tackle acquisition reform in the Air Force?
    General Schwartz. Ma'am, the basic approach, the mandate 
for doing this is clear to our Air Force. The way it has 
traditionally been done, and I, frankly, think it is 
appropriate, is that industrial base considerations are 
typically not considered within specific source selection 
activity on specific programs.
    The acquisition technology and the logistics organization 
in OSD has the role to do that at particular milestones in the 
acquisition process. So they have the more global perspective, 
if you will, not just whether it is a tanker or a fighter or a 
lift platform or a satellite, but rather, the broader 
implications for industrial base.
    And so, again, not completely in my lane, but the way that 
is currently being done makes sense to me. And it is clear that 
the civilian leadership understands the mandate.
    Senator Murray. Secretary Donley, do you want to add 
anything?
    Mr. Donley. No question that the Department has an interest 
in tracking how industrial base issues get affected by 
Departmental-level decisions and making sure those are taken 
into account as we go forward.
    Senator Murray. We have to think about the future while we 
are thinking about today.
    Well, let me talk about the timeframe for the tanker 
competition. Secretary Gates said that he needed a full team in 
place before this competition could be restarted. Now, 
Secretary Donley and General Schwartz, you are here. 
Secretaries Lynn and Carter, they have been confirmed and are 
in place. I have been told that we are going to begin work on 
this competition process this summer.

                 TIMING OF TANKER REQUEST FOR PROPOSAL

    That is a couple weeks away from now. Can you provide an 
update on the timing for the request for proposal (RFP) and how 
this process will follow that?
    Mr. Donley. Ma'am, we have been working on this issue for a 
couple of months now fairly intensively with Deputy Secretary 
Lynn, Secretary Carter, and other members of the acquisition 
team, and we are in the process of carrying forward the results 
of that work to the Secretary for his consideration. And we 
still do hope to get an RFP out this summer on the street.
    Senator Murray. Hope to is not a definite timeframe.
    Mr. Donley. No, this is our intent. And we have pledged, 
Secretary Gates has and I would certainly echo it, that when we 
have completed the results of our internal work and we are 
ready to go out, we will be briefing the Congress on the way 
forward.
    Senator Murray. Okay. So we are still in the timeframe of 
summer?
    Mr. Donley. Yes, ma'am.
    Senator Murray. Can you tell me what measures are being 
taken to prevent the claims of an unfair evaluation or scales 
being tipped to one side or the other?
    Mr. Donley. Well, we are committed from the get-go to a 
fair and open competition. There is no doubt of that.
    We have taken measures inside the Air Force to strengthen 
our source selection process. We have, since the events of last 
summer, increased our focused training on lessons learned from 
the two protests that were sustained last year, the KC-X and 
the CSAR-X, to get those lessons learned into our source 
selection process.
    With respect to the KC-X program in particular, we have put 
a few more senior people into that program office. We have 
moved contract approval authority up to the Secretary of the 
Air Force level, and we are undertaking other measures to 
strengthen the KC-X team and our source selection process as we 
lead into this RFP process going forward.
    Senator Murray. Well, this is a difficult process, and all 
of us want the best aircraft as soon as possible. But I think I 
share with everyone on this subcommittee, we want to make sure 
that this is a fair and transparent competition. We are really 
urging you to make sure that that is very clear.
    We want it to be good for the warfighter and good for the 
taxpayer, which leads me to the question of whether a dual buy 
is a viable option?
    Mr. Donley. Well, we share the Secretary's view that a dual 
buy would be more expensive for the taxpayer in at least three 
dimensions. It would require the development of two airplanes 
instead of one. We would end up with two logistics and two sort 
of depot infrastructure processes in support of that effort 
instead of one. And in the near term especially, we are 
concerned about the impact on the Air Force's budget and the 
Department of Defense's budget generally by going to a dual 
track approach.
    Our program has been structured around a buy of about 15 
airplanes per year. To accommodate a dual award strategy, where 
you are buying airplanes from two providers, probably the 
minimum order quantity for each is 12 aircraft. So that means 
instead of buying 15 per year, we would need to be buying about 
24 per year.
    Senator Murray. And we do not have the budget capacity for 
that?
    Mr. Donley. Well, this would eat significantly into our 
procurement program going forward. It potentially would almost 
double the tanker piece of the Air Force's procurement program 
within the FYDP going forward.
    Senator Murray. Which means other things would be left off 
the table?
    Mr. Donley. At the same time, we are trying to ramp up JSF, 
et cetera. So this is a concern to us, and this is basically 
the reason why we think the dual award would not make sense.

     FAIRCHILD AIR FORCE BASE, WASHINGTON--AERIAL REFUELING MISSION

    Senator Murray. Okay. I appreciate that, and I want this 
tanker competition done. You, of course, know I am hoping one 
plane company wins it. Just as high on the list for me is 
making sure that we protect our taxpayers in this process. So I 
appreciate your answer to that question.
    Beyond the tanker competition, you are simultaneously 
working on tanker beddown. So I want to talk about Fairchild 
Air Force Base in my home State and how it is uniquely 
positioned to support the KC-X beddown.
    We have two air wings who have a very proud refueling 
history there. I have seen them in action. They are incredible. 
We have a large runway and a strategic location for the 
execution of global reach mission, which is important.
    I recently met with the wing commander at Fairchild, and we 
talked about the excellent relationship that Fairchild has with 
the Spokane community, as well as some of the challenges that 
they have faced of late. I am sure you are aware that last 
winter one of Fairchild's key training facilities had its roof 
collapse during a major snowstorm there. Even though its runway 
is the right size, it is due as well for some very important 
maintenance and continued upkeep so it is ready for KC-X.
    Can you confirm for me that we are doing everything we can 
to make sure that Fairchild is ready for the KC-X when the time 
comes?
    General Schwartz. Again, ma'am, I don't want to suggest 
that, again, promises--not a promise. But certainly Fairchild 
Air Force Base is an obvious candidate for early beddown. There 
are others in the country, too, and we will see sort of what 
the production rate allows us to do. But Fairchild Air Force 
Base certainly is in the long-term plan.

   FUTURE OF 36TH RESCUE FLIGHT--FAIRCHILD AIR FORCE BASE, WASHINGTON

    Senator Murray. Okay. Well, I stand ready to help you do 
whatever we need to do there to make sure we are ready for that 
as well.
    In addition to supporting the refueling mission, Fairchild 
is also home to the 36th Rescue Flight. They are very 
important. They support the 336th Training Group and Air Force 
Survival School. We know that these helicopters evacuate and 
help locate students who become lost during their survival 
training. They are very important.
    It also supports civilian search and rescue operations. 
They have actually saved about 600 people during recent 
missions in a variety of States, not only mine, but Idaho, 
Oregon, and Montana. They are just extraordinary. Their 
crewmembers are unbelievable, and everybody just is amazed at 
their capability. So, first of all, my thanks to them.
    But I wanted to make sure that you all were committed to 
work with us on the future of that 36th Rescue Flight. This is 
so that we can maintain that very critical training in 
emergency rescue operations that they have.
    General Schwartz. Yes, ma'am. And I would also indicate 
that that is related to the decision to discontinue the CSAR-X 
program. And the Secretary made a call on that particular 
program, but clearly, the mission remains important for the 
Department of Defense, and that unit is part of that tapestry.
    Senator Murray. Okay. Well, they are very important to us. 
I know they are important to you, and I will work with you to 
make sure we have what we need within the budget process on 
that.
    So thank you very much.
    And thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Shelby, do you have any questions?
    Senator Shelby. I have no further questions.
    Chairman Inouye. Then Mr. Secretary, General Schwartz, I 
would like to thank both of you for your testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    I will be submitting questions on the tanker fleet. I am 
concerned personally because of the age factor. And I will also 
inquire into your thoughts further on dual purchase because I 
have received a report suggesting that there may be massive 
savings if you had two sources, but I will leave it up to you.
    I am also asking questions on the possibility of developing 
an export version of the F-22. I have had inquiries from our 
friends and allies abroad indicating strong interest in 
acquiring such aircraft.
    And so, with that, I would like to thank you once again.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted to Hon. Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye

                         TANKER CONTRACT AWARD

    Question. Secretary Donley, will the tanker replacement program 
request for proposals go out to industry this summer? Is the Department 
on track to make a contract award for the tanker replacement in early 
fiscal year 2010?
    Answer. We expect to release the draft request for proposal in late 
September 2009, with a planned contract award in summer 2010.
    Question. Secretary Donley, why is the Department confident that 
the upcoming tanker contract award will not result in a protest to the 
Government Accountability Office? What is the Department's plan if 
another protest is lodged and upheld?
    Answer. Protests are the prerogative of industry afforded by law. 
The Air Force cannot guarantee that the losing bidder will not file a 
protest with the Government Accountability Office. However, the Air 
Force has worked closely with the Office of the Secretary of Defense to 
ensure that the source selection strategy we implement will withstand 
outside scrutiny. If a protest is lodged and upheld, the Air Force will 
take the Government Accountability Office recommendation into 
consideration, and evaluate the next steps to recapitalize our tanker 
fleet.

                        TANKER DUAL BUY STRATEGY

    Question. Secretary Donley, what are the pros and cons of the 
Department of Defense awarding a split buy of tankers between the two 
industry competitors? What are the costs associated with this 
acquisition strategy for the full tanker replacement program?
    Answer. The pros and cons of the Department of Defense awarding a 
split buy of tankers are as follows:
    Pros:
  --Will likely expand U.S. wide-body aircraft manufacturer industrial 
        base; and
  --Lowers risk of protest.
    Cons:
  --Doubles development cost from approximately $3.5 billion to $7 
        billion;
  --To produce the minimum Economic Order Quantity of 12 aircraft per 
        year per competitor would increase average annual production 
        costs from approximately $3.6 billion per year to $6.2 billion 
        per year;
  --Magnifies training, operations, logistics, and support costs by 
        introducing two new and different airframes at the same time; 
        and
  --Would result in a significantly increased cost per aircraft if we 
        pursued a split buy at the current funding level, due to 
        production inefficiencies.
    Note: If additional production funds were available to support the 
procurement of 24 aircraft per year, there would be a faster 
recapitalization of our tanker fleet; but, we could achieve at least 
equal benefit from buying 24 aircraft per year from a single offeror
    OSD (AT&L) estimates the costs associated with a dual award 
strategy for the whole KC-X program would be between $11-$14 billion 
(Net Present Value).

                  STRUCTURAL REPAIRS OF KC-135 TANKERS

    Question. Secretary Donley, based on the current tanker replacement 
program, it will take over 30 years to recapitalize the KC-135 fleet.
    Can you elaborate on the cost of the structural repairs that will 
need to be done on the KC-135 fleet during the acquisition of the 
replacement tankers? Can these costs be avoided if the fleet is 
replaced sooner?
    Answer.
Discussion of Approach
    Skin replacements are the major structural repairs that occur on 
the KC-135 over and above the existing Programmed Depot Maintenance 
(PDM) scheduled maintenance. To date, these skin replacements have been 
manageable. Replacements in PDM have been limited, and there is a 
reasonable amount of rework that can be accomplished before most of the 
structures require replacement. However, the lack of a methodology 
accounting for the interaction of corrosion with fatigue generates 
uncertainty in our ability to accurately predict structure degradation.
    The following assumptions were made to determine the cost and 
schedule for replacing the skins:
  --The dates we have forecast for replacement were selected to gain 
        the most benefit from the work that will be accomplished, 
        therefore the initiation date was schedule and not technically 
        driven.
  --To minimize the impact to aircraft availability, it was assumed 
        that no more than 12 aircraft would be down at any one time, 
        and the tasks were grouped to be accomplished concurrently.
  --Each estimate uses current year (fiscal year 2009) dollars and is 
        per aircraft; then year dollars will be more.
    The information below can be compared with the proposed adjusted 
schedule for the KC-X. For example, the crown and center wing (wing 
box) upper skins (see below) would not require replacement until fiscal 
year 2026. Acquisition of KC-X would eliminate the requirement to 
modify 230 of the KC-135 aircraft.
            Aft Body Skins
    Replacement of these skins is already programmed to be done as part 
of PDM fiscal year 2012-fiscal year 2017.
    Estimated cost per airplane: $0.3 million.
    Schedule: Fiscal year 2012-fiscal year 2017, 416 aircraft.
    Estimated total cost: $124.8 million.
    Maximum aircraft down: N/A--concurrent with PDM.
            Upper Wing and Horizontal Stabilizer Skins
    These would be done concurrently, separate from PDM, in a speed 
line, and include replacement of substructure components that are 
important to continued use of the aircraft and accessible when the 
skins are removed.
    Estimated cost per airplane: $6.7 million.
    Schedule: Fiscal year 2016-fiscal year 2034, 416 aircraft.
    Estimated total cost: $2.8 billion.
    Maximum aircraft down: 12 (at any one time).
            Crown and Center Wing (wing box) Upper Skins
    This replacement is planned further in the future since recent 
experience has not indicated significant problems with corrosion or 
cracking. They are planned to be done concurrently in a speed line and 
separate from PDM. We have accounted for planned retirements in this 
increment.
    Estimated cost per airplane: $4.6 million.
    Schedule: Fiscal year 2026-fiscal year 2034, 230 aircraft.
    Estimated total cost: $1.1 billion.
    Maximum aircraft down: 12 (at any one time).
    Due to the materials and the assembly techniques used when the KC-
135 aircraft was originally procured, occurrences of corrosion and 
stress corrosion cracking will continue to be a primary area of 
concern. These materials are susceptible to corrosion or stress 
corrosion cracking. Corrosion is aggravated by the assembly techniques 
that did not use modern methods of corrosion prevention during 
assembly. Continued inspections, repairs, and preventive maintenance 
are required to ensure a viable fleet.
    Can these costs be avoided if the fleet is replaced sooner? Yes, as 
indicated in the answers above, some of the costs could be avoided, 
depending on timing of KC-X replacement and retirement schedule for the 
KC-135.

                              END STRENGTH

    Question. Secretary Donley, we understand that the Air Force will 
be allocating personnel to new or growing mission areas such as cyber 
security, the nuclear enterprise, intelligence, surveillance and 
reconnaissance and other air support activities.
    What tradeoffs are you considering that will enable the Air Force 
to dedicate more people to these missions?
    Answer. In the fiscal year 2010 President's budget, we source these 
new and emerging missions primarily through the proposed Combat Air 
Forces (CAF) restructuring plan. This effort accelerates the retirement 
of approximately 250 of our oldest fighters, funding a smaller but more 
capable, flexible, and lethal force, and redistributing manpower to 
emerging high priority missions.
    Implementation of the CAF restructure allows the Air Force to 
realign approximately 4,000 manpower authorizations to emerging and 
priority missions such as manned and unmanned surveillance operations 
and nuclear deterrence operations. This restructure is a major step, 
and was proposed only after a careful assessment of the current threat 
environment and our current capabilities. In addition to being a 
significant investment in bridge capabilities to our fifth generation-
enabled capability, this action shifts manpower to capabilities needed 
now for operations across the entire spectrum of conflict.
    Question. Secretary Donley, how do you see the roles and missions 
of the Air National Guard and Air Force Reserve changing in the future?
    Answer. As the Air Force moves forward, we must capitalize on the 
tremendous talent the Air National Guard and Air Force Reserve 
contribute to the Total Force, as both a strategic and operational 
resource. It is critical to build on the success of Total Force 
Integration to drive even greater gains in effectiveness and 
efficiency, and expanding integration initiatives across the force 
maximizes our capabilities across the spectrum of conflict--from 
building partnerships and irregular warfare to conventional operations 
and strategic deterrence. The Air Force will need to expand 
associations, both classic and active, as part of our broad effort to 
modernize our organizations into a more capable Air Force. This 
expansion also includes examining new mission areas, such as unmanned 
aerial systems, space and cyber, for Air Reserve component units as 
appropriate.

                              C-17 PROGRAM

    Question. Secretary Donley, there are some critics of the 
Department's plan to terminate production of the C-17 strategic airlift 
aircraft in fiscal year 2010. The next mobility capabilities and 
requirements study which will inform a decision has not been completed 
and C-17 is the only warm production line we have for strategic lift 
aircraft.
    What are your views about the adequacy of planned strategic 
airlift?
    Answer. The Air Force's planned fleet of 324 strategic airlift 
aircraft (213 C-17s, 52 C-5Ms and 59 C-5As) is more than sufficient to 
meet the current National Military Strategy. The C-5 RERP Nunn-McCurdy 
review of the 2005 Mobility Capabilities Study established a strategic 
airlift capability requirement of 33.95 million ton-miles per day, and 
the Air Force's strategic airlift program of record meets this 
requirement. The ongoing Mobility Capabilities and Requirements Study 
2016, expected in December 2009, will help establish the future 
strategic airlift requirement.

                      AIR FORCE NUCLEAR ENTERPRISE

    Question. Last fall, the Air Force published a strategic plan on 
``Reinvigorating the Air Force Nuclear Enterprise.''
    Secretary Donley, please walk us through the Air Force's plan to 
restore credibility in delivering secure and reliable nuclear 
deterrence capabilities to the American people.
    Answer. The Air Force has undertaken major efforts to reinvigorate 
our Nuclear Enterprise, to include a major step by activating a new 
major air command, Air Force Global Strike Command (AFGSC), at 
Barksdale AFB, Louisiana. The AFGSC organizational construct clearly 
aligns nuclear missile and nuclear capable bomber units under a single 
command and demonstrates a visible commitment to the nuclear deterrence 
mission. AFGSC will now foster a robust strategic deterrence enterprise 
and standardized self-assessment culture.
    Additionally, we realigned and consolidated nuclear sustainment 
under the Nuclear Weapons Center in Air Force Materiel Command. The 
Nuclear Weapons Center is now the focal point for nuclear weapons life 
cycle management and positive inventory control for nuclear weapons 
related material.
    The Air Force has also established a new directorate on the Air 
Staff responsible for Strategic Deterrence and Nuclear Integration 
under the leadership of a major general. These actions represent the 
largest reorganization the Air Force has undertaken since the early 
1990s, and provides the leadership and focus necessary to accomplish 
this critical mission with the precision and reliability it demands in 
today's environment and into the future.
    In addition to this significant reorganization effort we have also 
instituted changes to the Air Force corporate process by adding the 
Nuclear Panel for specific focus on nuclear issues and charged the 
Under Secretary of the Air Force to be responsible for broad nuclear 
policy and oversight. We also founded the Nuclear Issues Resolution and 
Integration Board and the Nuclear Oversight Board. These boards meet 
quarterly to ensure Air Force senior leaders involvement and 
notification on recent events occurring in the nuclear enterprise. The 
Nuclear Oversight Board is made up of major command commanders with 
equity in the enterprise and chaired by General Schwartz and me.
    We have also examined our inspection and self-assessment culture 
across the nuclear enterprise and have made improvements there as well. 
The Air Force Inspection Agency will have oversight of every nuclear-
related inspection. Inspection teams will consist of approximately 20 
``core'' team members who have undergone a standardized training and 
certification process to ensure consistent rigor. We have implemented a 
root cause analysis methodology to determine why mistakes were made and 
if they are a symptom of a larger problem.
    Finally, we have undertaken initiatives to deliberately develop 
leaders in the nuclear enterprise. We have reviewed every Air Force 
professional military education course from basic training to senior 
developmental education to ensure every Airman knows and understands 
the United States' policy and strategy for nuclear weapons. 
Additionally, we have established a process to track nuclear experience 
and developed new courses to prepare leaders to fill key nuclear 
billets. These processes will help ensure we place the right person, 
with the right skill set, in the right job, and at the right time.
    Question. Secretary Donley, how do you plan to rebuild the Air 
Force's culture and institutions so that each Airman understands the 
importance of the nuclear deterrence mission?
    Answer. The Air Force has conducted a review of the curriculum in 
every professional military education course from basic training 
through senior development education to ensure Airman are taught Air 
Force nuclear policy and strategy at key points throughout their 
careers.
    We have also refocused our nuclear inspection mindset. Instead of 
inspection teams identifying errors and the units simply fixing 
identified problems, we now do an extensive root cause analysis to 
determine why the mistake occurred, and if it is the symptom of a 
larger problem. This encourages our organizations to take a look at 
their entire processes to find ways to improve instead of just fixing 
what is broken. This new process strengthens self-assessment 
capabilities and instills a ``culture of excellence'' mentality.

                          JOINT CARGO AIRCRAFT

    Question. Secretary Donley, the Joint Cargo Aircraft program is now 
an Air Force responsibility rather than a joint Army-Air Force program. 
In addition, the validated requirement of 78 aircraft appears to have 
dropped to 38 aircraft.
    Why has the Air Force assumed responsibility for this program and 
what has changed to reduce the requirement?
    Answer. The transfer of Army Time Sensitive/Mission Critical 
airlift support to the Air Force intends to capitalize on efficiencies 
gained by operating the tactical airlift fleet under a single service. 
The Department of Defense is now engaged in an overall look to leverage 
existing intra-theater airlift capability to maximize effectiveness and 
minimize expenditure of taxpayer dollars. The changes reflected in the 
fiscal year 2010 President's budget request balance the C-27J 
capabilities with the existing capabilities in the Department. The Air 
Force will continue to evaluate the entire intra-theater fleet as 
mission needs develop.

                   FIGHTERS IN THE AIR NATIONAL GUARD

    Question. Secretary Donley, the Committee recently received 
testimony from the Air National Guard alerting us to the fact that 80 
percent of their F-16 fighter inventory will face retirement beginning 
in 2017. Retiring these aircraft will almost eliminate the fighter 
aircraft that the Air National Guard has dedicated to the Combat 
Aviation and Air Sovereignty Alert missions.
    What steps are you taking to ensure that the Air National Guard is 
properly equipped for its important homeland security mission over the 
United States?
    Answer. Homeland Defense is the Department of Defense's first 
priority and we are committed to the Operation NOBLE EAGLE mission 
through the long term. Recapitalization of the fighter and tanker fleet 
will require many years, and within the available funding, we will 
maximize the life of existing aircraft.
    We continue shaping our force structure to meet the threat with the 
best mix of capabilities. To do this, we are acting swiftly to remedy 
our potential capability gaps, based on accurate service life and fleet 
health projections over the next 5-15 years. The Quadrennial Defense 
Review will also take a close look at Homeland Defense requirements and 
provide us further insight on the force structure required to meet our 
Nation's air defense needs.
    Question. Secretary Donley, is the Air Force looking at new 
missions for the Air National Guard? Are additional association 
relationships with active Air Force units planned?
    Answer. The Air Force continues to examine opportunities for 
integration with the Air National Guard and all existing and emerging 
mission areas are considered for Total Force Integration initiatives. 
Currently, there are additional fighter associations planned for the 
Air National Guard. The Air Force recognizes the significant 
contributions that experienced Air National Guard Airmen bring to Total 
Force Integration associations and expects those benefits to continue 
in legacy and next generation missions.
    Question. Secretary Donley, if delays in the F-35 Joint Strike 
Fighter program keep the Air Force from filling the empty fighter spots 
in the Air National Guard with the new aircraft, will you consider 
buying 4th generation F-15s and F-16s, which provide improved 
capability over the aircraft being flown today?
    Answer. The United States Air Force has invested heavily in the F-
35 program, and we are closely tracking developments in order to ensure 
that it stays on track. The Chief of Staff of the Air Force, General 
Schwartz, has stated on many occasions that the key to the Air Force's 
fighter recapitalization is the F-35, and any initiatives to procure 
fighter weapons systems other than the F-35 would require buying fewer 
F-35s. Subsequently, delays in F-35 procurement would also cause an 
increase in cost and further delay the F-35 for the Air Force, Navy, 
and Marine Corps.
    After the Quadrennial Defense Review is completed, we expect to 
have a more accurate picture of what the Nation's and Air Force's 
requirement will be for fighter force structure. If there is going to 
be a gap in capabilities, this could be addressed by extending the 
service life of the F-15s and F-16s. We are currently conducting 
fatigue testing on the F-15 and F-16 fleets to provide a scope and 
focus on the structural modifications that might be necessary. Once 
these structural tests are complete, we will have a sense of whether or 
not we will need a Service Life Extension Program. Beyond this, we have 
no plans to procure additional 4th generation F-15s and F-16s.

             INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE

    Question. Secretary Donley, what is the status of discussions to 
bring the C-12 programs together, possibly under the Air Force, and 
avoid duplicative efforts in areas such as sensor development and 
training programs? What are the disadvantages of a joint approach here?
    Answer. The C-12 class of aircraft is made up of over 26 different 
aircraft variations, and the numerous sensor configurations easily 
triple the number of overall configurations in separate Services. 
Consolidation of these converted civilian platforms under one program 
would be extremely challenging and time-consuming. A few discussions 
have occurred with regard to merging the C-12 class aircraft under one 
Service; however, to satisfy urgent warfighter needs, the Air Force's 
focus has been on producing, modifying, and fielding aircraft as 
rapidly as possible. Due to the numerous variations and capabilities of 
currently fielded C-12 systems, separate management is the most rapid 
way forward for today's needs. To determine the full range of 
advantages and disadvantages for a common future platform, further 
discussion and in-depth analysis will be required.

                       EXPORT VERSION OF THE F-22

    Question. Secretary Donley, I believe the Department should 
consider an export program for the F-22 Raptor fighter aircraft. Under 
the rules for such a program, the costs for developing an export 
variant is borne by the interested nation, not the United States. This 
would enable us to provide advanced fighter capabilities to our close 
friends and allies.
    Secretary Donley, what is your view of an export program for an F-
22 variant?
    Answer. The Obey amendment to the fiscal year 1998 Defense 
Appropriations Act, reenacted annually in every subsequent 
appropriations act, prohibits foreign military sales of the F-22A 
Raptor. However, I believe the F-35 is the aircraft of the future, for 
both the United States military and our partner nations. It would be 
very expensive for Japan, Australia, or other nations to buy an export 
model of the F-22, and this funding is potentially better spent on 
collectively developing the F-35 and the interoperability that enables 
us to work together in future joint and coalition operations around the 
world.
    Question. Secretary Donley, could you give the Committee a rough 
order of magnitude estimate on the cost and schedule to develop an 
export version of the F-22?
    Answer. The rough order of magnitude cost and schedule estimate to 
develop an export version of the F-22 is estimated at $2.3 billion for 
non-recurring development and manufacturing, with the first delivery of 
an operational aircraft 6.5 years from the Engineering Manufacturing 
and Development contract.
    These figures came from a recent study which was reported to SAC-D 
staff and Senator Inouye in May 2009. The study also identified an 
additional cost estimate of $9.3 billion for the production of 40 
aircraft, resulting in a total estimated cost of $11.6 billion (average 
aircraft cost of $290 million). A Letter of Agreement signed in early 
2010 would result in the first operational aircraft delivery no sooner 
than 2017.
    The cost and schedule estimates above only include the air vehicle 
(aircraft, engines, and avionics). The study did not include recurring 
or non-recurring costs for support and training systems, initial 
spares, base stand-up, interim contractor support, U.S. government 
program offices, foreign military sales surcharges or production 
shutdown.
    Question. Secretary Donley, do you think the availability of an 
export version of the F-22 would change the international market for 
the F-35 Joint Strike Fighter?
    Answer. Introducing the F-22 into the export market as another 
available fifth generation fighter would have a pronounced effect in 
reducing international interest in acquiring the F-35. Reduced foreign 
sales of the F-35 would cause an attendant increase in unit cost to the 
United States--Air Force, Navy, and Marine Corps--and would have the 
same effect on those international partners dependant on the F-35 for 
their future airpower capabilities; potentially decreasing 
international sales, resulting in even greater unit cost increase.
    The benefit of interoperability to the U.S. warfighter is another 
major concern. The Air Force will maintain a small fleet of F-22s, 
while acquiring F-35s. The Air Force, Navy, and Marine Corps will have 
much greater interoperability with partner air forces employing the F-
35 than with the F-22.
    Finally, non-recurring engineering costs associated with hardware 
and software re-design to produce an exportable version will be 
substantial--well over $2 billion. The result would be an airframe 
different in many respects from the Air Force F-22, complicating the 
training of international pilots and adversely affecting 
interoperability even beyond considerations of fleet size. 
Additionally, Air Force personnel and technical resources required to 
develop and oversee such a program would detract from resources needed 
to properly manage our own acquisition programs.

                           THE CYBER COMMAND

    Question. Secretary Donley, the 24th Air Force, which will stand-up 
this year at Lackland Air Force Base, Texas, is the Air Force's focal 
organization for dealing with cyber operations and network warfare. The 
mission is new and success will depend on developing a highly skilled 
workforce drawn from a number of Air Force career fields.
    What are your plans for identifying and managing the cyber warrior 
career force?
    Answer. The Air Force is committed to establishing dedicated 
officer, enlisted and civilian career fields to meet the emerging 
demand and address recruiting, training and retention challenges. Air 
Force Space Command, as the lead command for cyber, and the Air Staff 
are collaborating to identify personnel and positions that are 
performing or will perform cyber duties. So far, the enlisted Network 
Warfare Operations (1B4) and officer Cyber Operations (17D) career 
fields were approved on April 15, 2008, to be established not later 
than October 2010. No date has been established for civilian career 
field solutions, as we are still in the early stages of investigation 
and development.
    Question. Secretary Donley, since the cyber field is relatively 
new, this is an opportunity to optimize a DOD-wide approach to training 
and operations.
    How is the Air Force working with the other Services to develop 
joint training, joint certifications or shared facilities?
    Answer. Joint cyber training standards and certification remain a 
work in progress. The Office of the Secretary of Defense and Joint 
Staff are leading the Department of Defense effort in collaboration 
with the Services, U.S. Strategic Command, and Joint Forces Command. 
The Air Staff and Air Force Space Command, as lead command for cyber 
operations, are heading Air Force efforts. Current Joint and Service 
efforts focus on enhancing existing training programs to further mature 
and professionalize the force. A robust cyber training enterprise has 
emerged, composed of Service, Joint, academic and commercial solutions. 
This initial effort should be complete by spring 2010.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                              C-5 AIRCRAFT

    Question. Mr. Secretary, I believe premature repeal of Section 132 
of the fiscal year 2004 National Defense Authorization Act (NDAA) that 
pertains to the retirement of C-5A strategic lift aircraft language 
could result in the U.S. Air Force's (USAF) making uninformed force 
structure decisions, just as the Army and Marine Corps are growing in 
size and lift requirements. Section 132 was enacted to ensure the USAF 
does not prematurely retire C-5A aircraft without having the objective 
data from the C-5 Reliability Enhancement and Re-Engining Program 
(RERP) Operational Test and Evaluation (OT&E) and a report submitted to 
the Congressional defense committees.
    Should Section 132 be repealed and will the USAF undertake a 
thorough review of the C-5 OT&E data, which is expected to be available 
this year, prior to issuing any decisions to retire any C-5 aircraft?
    Answer. The United States Air Force will fully consider all 
information at its disposal, to include the IDA study, prior to making 
any programmatic decisions.
    Question. Mr. Secretary, the fiscal year 2008 NDAA-directed 
Institute for Defense Analysis (IDA) Study on Size and Mix of Airlift 
Force (February 2009) affirmed the value of C-5s and their 
modernization programs. IDA considered 36 alternative mixes and sizes 
and compared them against the current program of record (316 strategic 
airlifters). The study found; ``that retiring C-5As to release funds to 
buy and operate more C-17s is not cost-effective''. Additionally, 
``virtually all the C-5s and C-17s have lifetimes beyond 2040''.
    Will the IDA study's overall conclusion that C-5A RERP is 
preferable to additional C-17s be fully considered by the USAF prior to 
moving forward with any plans to retire any C-5A aircraft?
    Answer. The United States Air Force fully considers all information 
at its disposal prior to any programmatic decisions and will fully 
consider the IDA study if there is a proposal to retire C-5A aircraft.
    Question. Mr. Secretary, I do not support repeal of Section 132 of 
the fiscal year 2004 NDAA. I believe the Office of the Secretary of 
Defense and the Congress should consider all objective data in support 
of future fact-based force structure decisions. It is my hope that 
Section 132 be allowed to expire in the February/March 2010 timeframe 
following submission, and proper consideration of the C-5 RERP OT&E 
report to Congress.
    Should Section 132 be repealed and a decision made to prematurely 
retire a portion of, or the entire, C-5A fleet, what would be the 
impact on the 167th Airlift Wing of the West Virginia Air National 
Guard, which was just officially designated as a fully operational C-5A 
unit on April 1, 2009?
    Answer. Repeal of Section 132 of the fiscal year 2004 National 
Defense Authorization Act would provide the Air Force maximum 
flexibility in managing its strategic airlift fleet. We value the 
information that reports such as the Reliability Enhancement and Re-
engining Program Operational Test and Evaluation provide and weigh them 
accordingly in our analysis. In addition, we are awaiting the Mobility 
Capabilities and Requirement Study 2016 final report, expected in late 
2009, to make an updated, fact-based analysis of our strategic airlift 
fleet. Any future decision to alter the force structure will be based 
on a detailed evaluation of factors.
    Question. Mr. Secretary, at a February 21, 2007, Senate 
Appropriations Defense Subcommittee hearing on the USAF's fiscal year 
2008 budget request, I asked your predecessor, Secretary Wynne to 
respond to comments made by then-USAF Chief of Staff General Moseley 
that the USAF would like to retire 25-30 of the worst performing C-5 
aircraft. My specific question was, ``Under what timeline is the USAF 
planning to act and to inform Congress and the impacted bases of such 
retirements?'' His response was: ``If relieved of legislative 
restrictions, the USAF would be able to effectively manage the mix of 
various aircraft fleets. Preliminary options under review include 
replacing retiring strategic airlift aircraft with newer C-17s or 
backfilling with newer C-5Bs from within the USAF. No new units are 
anticipated. Likewise, closures of existing units are not planned. The 
USAF will be open and transparent with regard to basing plans.
    If relieved of legislative restrictions regarding the C-5A aircraft 
in the near future, do you and General Schwartz intend to replace 
retiring strategic airlift aircraft with newer C-17s or backfill with 
newer C-5Bs from within the USAF? You may be assured that I will be 
following up with you in this regard in the near future.
    Answer. The United States Air Force will fully consider all 
information at its disposal, to include the IDA study, prior to making 
any programmatic decisions.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                          JOINT CARGO AIRCRAFT

    Question. C-27 Joint Cargo Aircraft (JCA): the Defense Department 
recently realigned executive agency of the C-27 Joint Cargo Aircraft 
(JCA) from the U.S. Army to the U.S. Air Force. Concurrent with this 
action, the total planned procurement of the C-27 aircraft was reduced 
from 78 to 38. Originally, the Air Force was to procure and assign 24 
aircraft to the Air National Guard. Now the plan is for the Air Force 
to operate all 38 JCAs.
    What is the Air Force plan for basing these aircraft?
    Answer. Given recent Department of Defense decisions regarding the 
JCA program, the Air Force is working with the National Guard Bureau 
and the Army to determine how to best meet domestic requirements and 
the strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and the Air National Guard to determine the 
basing plans for the C-27J. Final basing decisions for this system are 
still pending.
    Question. When and how many C-27 aircraft will be assigned to the 
119th Air Guard Wing in Fargo, ND?
    Answer. Given recent Department of Defense decisions regarding the 
JCA program, the Air Force is working with the National Guard Bureau 
and the Army to determine how to best meet domestic requirements and 
the strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and the Air National Guard to determine the 
basing plans for the C-27J. Final basing decisions for this system are 
still pending.

                         NEXT GENERATION BOMBER

    Question. Next Generation Bomber (NGB): in the fiscal year 2010 
budget, the Air Force is no longer funding continued development of a 
new long range strike aircraft, the Next Generation Bomber (NGB). 
Previous Air Force budget submissions indicated a need to obtain an 
initial capability by the year 2018.
    Explain why the Air Force cancelled the NGB program and outline its 
plans for addressing this need and fulfilling the requirement for a new 
long range strike platform.
    Answer. The decision to cancel the Next Generation Bomber was 
directed by the Secretary of Defense in the fiscal year 2010 
President's budget submission. The Air Force supports the Quadrennial 
Defense Review and Nuclear Posture Review to assess future strategic 
requirements.
    Question. If the Service is not continuing the new NGB, what steps 
are being taken to modernize and keep our legacy bomber fleet healthy 
and viable until a follow-on bomber is fielded?
    Answer. The Air Force plans to maintain the current bomber force 
(B-1s, B-2s, and B-52s) and continue with planned sustainment and 
modernization programs. The B-1 has five sustainment programs to 
prevent grounding and one developmental program, which adds data link 
capability. The B-2 also has robust sustainment and modernization 
programs. These programs have been in previous budget requests and 
continue in the fiscal year 2010 President's budget request.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                   REDUCTIONS TO CONTRACTOR WORKFORCE

    Question. Secretary Donley, will efforts to reduce your reliance on 
contractors and hire additional civilian government workers mean an end 
to ``Public-Private'' competitions conducted under the Office of 
Management and Budget A-76 Circular process?
    Answer. The Air Force views in-sourcing as one of many efficiency 
tools that comprise our overall human capital strategy. We do not view 
it as necessarily being mutually exclusive from reasoned and strategic 
application of public-private competitions. Presently, the Air Force 
has no new public-private competitions identified for the remainder of 
this fiscal year due to the moratorium established by the fiscal year 
2009 Omnibus Appropriations Act.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                       ADDITIONAL F-22 PURCHASES

    Question. Does the Air Force plan to purchase additional F-22 
aircraft to fill the gap if and when F-22 attrition occurs?
    Answer. The Air Force does not plan to purchase additional F-22s. 
The fiscal year 2010 President's budget request completes the F-22 
program of record at 187 aircraft and the last aircraft will be 
delivered in March 2012. No further procurement is planned or 
programmed beyond the program of record. Air Force fleet management 
actions will ensure the long-term viability and combat capability of 
the F-22.

                        F-35 TECHNICAL TRAINING

    Question. F-35 technical training is currently conducted in several 
locations. Follow-on technical training for F-15s, F-16s, and A-10s 
(Air Force legacy platforms that the F-35 is set to replace) is 
completed at four additional locations. I believe that there are many 
benefits to consolidate training at a valued Air Force installation 
such as Sheppard Air Force Base in Wichita Falls, Texas. This may 
include reduced costs, experience with allied and international 
training, expertise and core competencies in fifth-generation fighter 
technical training, strong positive community support, and reduced 
permanent change of station and temporary duty moves for our airmen and 
women.
    Please share your thoughts on consolidation of F-35 technical 
training as well as possible timelines for this to become a reality.
    Answer. All F-35 maintenance technicians will receive their initial 
skills training at Sheppard Air Force Base, Texas. Crew chief, avionics 
and armament specialists will receive follow-on specialized F-35 
training at Eglin Air Force Base, Florida. This arrangement will 
provide our Airmen with the skills needed.
    Beginning in 2013, F-35 maintenance technicians will complete basic 
military training at Lackland Air Force Base, Texas and then proceed to 
Sheppard Air Force Base, Texas for maintenance fundamentals training. 
Thereafter, crew chief, avionics and armament specialists will receive 
F-35-unique apprentice training at Eglin Air Force Base, Florida. All 
other Air Force F-35 maintenance technicians will receive initial 
skills training at Sheppard Air Force Base and F-35-unique hands-on 
training at a field training detachment at their first operational 
base.

          SUPPORT TO STATES--POTENTIAL MOBILITY CAPABILITY GAP

    Question. Currently The Texas National Guard Sherpa (C-23) are 
scheduled to deploy to support overseas operations. The extreme demands 
of intra-theater cargo airlift will pose significant stress on an 
already aging airframe.
    How does the Air Force plan to provide adequate replacement support 
to the States to sustain high maintenance and potential replacement of 
aircraft attrition if the anticipated and validated C-27 Joint Cargo 
Aircraft program is not moved forward?
    Answer. In accordance with Chapter 1011 of Title 10, the National 
Guard Bureau is the channel of communication between the States and the 
Air Force on all matters pertaining to the National Guard. In 
stationing and allocating Air National Guard capabilities across the 
States, the National Guard Bureau has historically endeavored to 
disperse capabilities geographically in such as way as to facilitate 
access by States when needed. This practice is expected to continue.
    Given recent Department of Defense decisions regarding the JCA 
program, the Air Force is working with the National Guard Bureau and 
the Army to determine how to best meet domestic requirements and the 
strong demand for direct support airlift in overseas contingency 
operations. Similarly, the Air Force is working closely with the 
National Guard Bureau and Air National Guard to determine the basing 
plans for the C-27J. Final basing decisions for this system are still 
pending.

                          JOINT CARGO AIRCRAFT

    Question. The Joint Cargo Aircraft (JCA) mission was validated at 
the Joint Capabilities Integration Development Systems (JCIDS) process 
and approved by the Joint Requirements Oversight Council. The 2009 
Quadrennial Roles and Missions Review report found that Service 
Capabilities were appropriately assigned.
    What new information has over-ridden the extensive validation of 
this thoroughly vetted program?
    Answer. The adjustments made to the fiscal year 2010 President's 
budget request will maximize the robust capabilities resident in our 
current airlift fleet and ensure all intra-theater requirements are 
met. The transfer of Army Time Sensitive/Mission Critical airlift 
support is intended to capitalize on efficiencies gained by operating 
the tactical airlift fleet under a single Service. The Department of 
Defense is now engaged in an overall look to leverage existing intra-
theater airlift capability as we look to maximize effectiveness and 
minimize expenditure of taxpayer dollars.
    While the requirement for Joint Cargo Aircraft capability remains, 
the Air Force will, whenever possible, apply existing capability to 
fill a requirement before procuring additional hardware. Determining 
the extent to which we can apply our current fleet to this mission area 
is the task at hand and the Mobility Capability Requirements Study 2016 
will help resolve this question.

                      TEST AND EVALUATION SUPPORT

    Question. The new Administration's budget request cuts PE 0605807F 
almost $50 million when compared to the fiscal year 2009 budget and by 
almost $60 million compared to the first fiscal year 2010 budget 
request submitted in January. A portion of the cut is just that, a cut. 
The second element of the cut is based upon the assertion that there 
will be a savings realized when 750 contractor positions are converted 
to civil service solutions.
    What analysis has been done to identify what the workforce mix of 
contractor and civil service should be?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. While currently 
there is no analysis, the Air Force is in the process of identifying 
specific in-sourcing candidates to comply with the requirement.

                   CONTRACTOR TO CIVILIAN CONVERSIONS

    Question. The new Administration's budget request cuts PE 0605807F 
almost $50 million when compared to the fiscal year 2009 budget and by 
almost $60 million compared to the first fiscal year 2010 budget 
request submitted in Jan. A portion of the cut is just that, a cut. The 
second element of the cut is based upon the assertion that there will 
be a savings realized when 750 contractor positions are converted to 
civil service solutions.
    What analysis has been done showing the savings that will result 
from the conversion of contractor positions to civil services 
positions? Did the analysis include fully burdened costs of civil 
service positions similar to costs clearly visible for contractor 
support (i.e., overhead, G&A, material & handling, etc.)?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings. While currently there is no 
analysis, the Air Force is in the process of identifying specific in-
sourcing candidates to satisfy the requirement.
    Question. What is the hiring ramp-up schedule for achieving the 
contractor to civil service conversions? What analysis has been done to 
verify that OPM and AF offices can achieve the ramp-up schedule?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings.
    Question. What assessments of disruption to programs (operational 
readiness perspective) have been completed?
    Answer. The Service components received Office of the Secretary of 
Defense-directed contractor to Department of Defense civilian 
conversion targets which begin in fiscal year 2010. The associated 
funding reductions were based on the Office of the Secretary of 
Defense's estimate of 40 percent savings.

                     MAJOR RANGE AND TEST FACILITY

    Question. Defense Test Resource Management Center (DTRMC) is 
required by law to do an independent scrub of Major Range & Test 
Facility Base (MRTFB) budgets of the Services. That was accomplished 
when the fiscal year 2010 President's budget request was delivered to 
Congress in January of this year which exceeded the current funding 
level by $60 million. No such assessment has been, nor is intended, for 
the new Administration's budget.
    What is the Department's plan to avoid circumventing the law and 
Congress?
    Answer. The Defense Test Resource Management Center has issued an 
addendum to its previous certification of the fiscal year 2010 
President's budget request. This addendum addresses the new 
Administration's budget request.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                             MINUTEMAN III

    Question. I deeply appreciate the news I received that the Air 
Force is going to maintain the solid rocket motor industrial base that 
supports the Minuteman III land-based portion of our nation's strategic 
missile defense and nuclear deterrence. Only the prompt transfer of 
funds will prevent further disruptions in production and provide a 
desirable continuity of employment for the highly sought after 
engineers and workers of the solid rocket industrial base.
    What is the status of the Air Force's request to the Department of 
Defense to reprogram fiscal year 2009 funds?
    Answer. As part of Department of Defense's fiscal year 2009 Omnibus 
Reprogramming request, the Air Force has submitted a new start request 
to initiate an ICBM solid rocket motor warm line. Once new start 
authority is granted by the Congressional Defense Committees and 
propulsion replacement program contract close-out finalization is 
completed, the Air Force intends to internally reprogram available 
funding from within the Minuteman squadrons program element to fund 
initial warm line activities as a bridge to fiscal year 2010. The 
fiscal year 2010 President's budget request includes $43 million for 
the ICBM solid rocket motor warm line.
    Question. How many solid rocket motors is the Air Force planning to 
buy? If this is not an accurate measure of the ability to maintain a 
warm line, please explain the rationale that is driving the budget 
numbers we have seen.
    Answer. The number of solid rocket motors is not an accurate 
measure of the ability to maintain an industrial base. We believe the 
ability to maintain the industrial base is captured in the fiscal year 
2010 effort which is structured to maintain design-unique material 
availability; sub-tier material supplier viability; touch labor 
currency; and design engineering personnel continuity unique to the 
Minuteman weapon system. In addition, the fiscal year 2010 effort is 
designed to maintain systems engineering assessment capability and 
utilize independent verification of production processes.
    Actual production quantities will not be known until the contract 
is finalized.

                          FORCE RESTRUCTURING

    Question. I was disappointed to learn that Hill will lose one of 
its three F-16 fighter squadrons as a part of the recently announced 
force-wide restructuring. However, upon reviewing the list of locations 
from which the Air Force plans to remove F-16s, I noticed bases in the 
intermountain and southwest regions appear to bear the brunt of F-16 
force reductions. I find this puzzling due to the tremendous training 
opportunities afforded by ranges in these regions.
    If the Air Force is seeking cost reductions, is it not more 
efficient to station aircraft near the ranges, like the Utah Test and 
Training Range, which affords the most effective training environments?
    Answer. Proximity to training ranges is one of many criteria the 
Air Force uses to make basing decisions. The Combat Air Forces fighter 
force restructuring plan will provide the United States with a smaller, 
but more flexible, capable, and lethal force as we bridge to our 
ultimate goal of a 5th generation-enabled force. As we developed this 
plan over the last year, we focused on balancing planned force 
reductions across active duty, Guard, and Reserve components, as well 
as overseas and U.S. locations. We carefully analyzed the missions 
across our units in all the Air Force components to achieve the force 
mix that made the most strategic sense. The changes in this plan were 
closely coordinated with our Air National Guard and Air Force Reserve 
partners, as well as our major commands and affected regional combatant 
commanders.
    Question. I also wanted to ask about the confusing signals I've 
received regarding the restructuring that could take place at Hill. 
Under the total force integration concept, the 388th and 419th fighter 
wings were merged together as a prototype for further efforts to mix 
active and reserve fighters, an effort that has seen great results so 
far. Despite this the restructuring calls for one full squadron of F-
16s to be removed from that combined wing.
    Can you explain to me how the Air Force came to this decision, and 
what you have determined are the real impacts on the total force 
integration program?
    Answer. The fiscal year 2010 Combat Air Forces fighter force 
restructuring plan offers the Air Force an opportunity to reap 
significant savings in funds and manpower by accelerating the 
retirement of approximately 250 of our oldest fighters, reinvest in 
critical modifications to our combat forces fleet, procure preferred 
air-to-air and air-to-ground munitions and critical Air Force and Joint 
enabling technologies, and redistribute manpower to national priority 
missions.
    These actions will provide the United States with a smaller, but 
more flexible, capable, and lethal force as a capability-based bridge 
from our legacy-dominated force to our ultimate goal of a 5th 
generation-enabled force. The proposed Hill Air Force Base, Utah 
changes are part of a global resource allocation process that makes 
strategic sense.
    As we developed this plan over the last year, we were successful in 
balancing planned force reductions across our active duty, Guard, and 
Reserve components, as well as in the States and overseas locations. We 
carefully analyzed the missions across our units in all the Air Force 
components to achieve the force mix that made the most strategic sense. 
The changes in this plan were closely coordinated with our Air National 
Guard and Air Force Reserve partners, as well as our major commands and 
affected regional combatant commanders.
    The partnership between the active duty and Air Force Reserve 
components at Hill Air Force Base, Utah was one of the first Total 
Force Integration (TFI) initiatives. The classic association with the 
Air Force Reserve regarding F-16s at Hill Air Force Base, Utah has a 
proven record of success and it has yielded valuable lessons learned 
for other TFI associations. This association with the Air Force Reserve 
at Hill Air Force Base will continue to meet the needs of the combatant 
commanders during and after any force structure changes. The Air Force 
will continue to assess the impact of force structure changes on 
associate units in order to maintain an efficient and effective combat 
air force.

                       F-35 SQUADRON AT HILL AFB

    Question. It has been over a year and half since I was informed 
that Hill is to be one of the first two Air Forces Bases in the 
continental United States to receive an operational F-35 squadron. Now, 
I understand that Hill is only ``on track'' to receive the F-35. Why is 
the Air Force stepping back from the commitment it made?
    Is Hill going to receive one of the first two operational F-35 
squadrons in the continental United States?
    Answer. A corporate, across the Air Force, review was not used in 
developing the previous ``roadmap.'' To ensure the Air Force did not 
considered all potential basing opportunities to support basing, I 
directed the current ``Enterprise-Wide Look'' (EWL), which will include 
Hill Air Force Base, Utah. The basing process prior to Fall 2008 was 
de-centrally executed by our major commands. Basing decisions are now 
at the Headquarters Air Force level. Bringing the basing decision to 
this level improves the decision making process to meet corporate Air 
Force requirements and the EWL planning process will assist in defining 
a measured, transparent and repeatable process; allowing for a 
narrowing of the list of potential F-35 basing locations. Upon 
completion of its internal review, the Air Force will release the 
results of the EWL and its content consistent with requests for 
information from the public. It would be premature at this time to 
presuppose the results of the EWL, but we expect to finalize the 
initial candidate list for the first increment of operational bases by 
October 2009.

                         F-35 SOFTWARE WORKLOAD

    Question. I understand 22 percent of the depot maintenance for the 
F-35 is software. Hill's Software Maintenance Group is ranked as one of 
the top software engineering corporations in the world with a Level 5 
Carnegie Mellon Software Capability Maturity rating. The additions to 
Hill's Software Center will be completed shortly.
    How is Hill's performance rated in the competition for the F-35 
software workload?
    Answer. The F-35 depot source of repair decision process for 
software is not complete, and we are several years away from any 
selection process involving the organic depots. There are ongoing 
discussions between the F-35 Program Office, the Services, and the 
prime contractor on the most cost effective method to transition 
software maintenance from the developing contractors to organic depots. 
Specifics for the timing of depot activation are dependent on 
completion of software development, results of flight test, and the 
maturation of software through the end of the system development and 
demonstration program. The F-35 Program Office will perform a study 
during 2011 on the activation costs associated with standing up organic 
software capability through the Future Years Defense Program. The depot 
source of repair decision for F-35 software is currently scheduled to 
be completed by the end of 2014.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye

                     AGE AND HEALTH OF TANKER FLEET

    Question. General Schwartz, I am concerned about the aging Air 
Force tanker fleet and the health and age of the KC-135 tankers by the 
time they are replaced.
    Can you update the Committee on the status of the Air Force tanker 
fleet, including the age of the fleet and any current safety and flight 
concerns?
    Answer. The Air Force tanker force structure includes 415 KC-135 R 
and T models, and 59 KC-10A aircraft with average fleet ages of 48 
years and 24 years, respectively. Upon retirement of the last KC-135 
planned for 2040, this tanker will have reached 80 years of service. 
The KC-10 will have achieved 60 years of service upon its planned 
retirement. Investment programs for both airframes focus on safety of 
flight and obsolescence issues. The KC-135 aircraft has six ongoing 
fleet-wide modification programs:
  --Control Column Actuated Brake.--Modification preventing an unsafe 
        stabilizer trim wheel runaway condition--fleet modification 
        complete in fiscal year 2010.
  --VOR/ILS Antennae Replacement.--Replaces the obsolescent antennae 
        used for navigation and precision instrument landing systems--
        this is an fiscal year 2010 New Start program.
  --Block 45 Upgrade.--Cockpit avionics modernization replacing 
        obsolescent Autopilot, Flight Director, Radar Altimeter, and 
        Engine Instruments--contract award late fiscal year 2009.
  --Global Air Traffic Management.--Updates and replaces Communication 
        Navigation Surveillance/Air Traffic Management (CNS/ATM) 
        equipment to meet restricted airspace requirements worldwide; 
        modification complete in fiscal year 2011.
  --Enhanced Surveillance.--Replaces APX-110 transponder with APX-119, 
        providing enhanced aircraft tracking and Identify Friend or Foe 
        Mode 5 capability (complete by fiscal year 2010).
  --Mode 5.--DOD-mandated upgrade to the IFF system used for aircraft 
        identification in Air Defense Operations (fiscal year 2010 to 
        fiscal year 2012).
    The KC-10, a commercial derivative of the McDonnell Douglas DC-10-
30 delivered in 1981, provides both strategic air refueling and airlift 
for deployment, employment, redeployment and Joint/Combined support 
operations. In its current configuration, the KC-10 does not meet 
future Federal Aviation Administration/International Civil Aviation 
Organization (ICAO) CNS/ATM requirements for 2015 airspace 
restrictions. To mitigate operational risk, two modification programs 
exist for the KC-10:
  --CNS/ATM Modification.--Addresses near-term issues required to keep 
        aircraft operational within 2015 air traffic mandates/
        restrictions.
  --Boom Control Unit Replacement.--Replaces unsustainable Boom Control 
        Unit (complete 2012).

                              END STRENGTH

    Question. General Schwartz, how do you see Air Force missions 
changing as operations draw down in Iraq and increase in Afghanistan?
    Answer. The Air Force will continue to provide critical air, space 
and cyberspace capabilities to the warfighter in both Joint Operating 
Areas--Iraq and Afghanistan. Continued improvement in Iraqi security 
will permit the Air Force to move from a ``combat'' posture toward one 
more aligned with ``advise and assist,'' to include shifting focus 
toward training the Iraqi Air Force.
    In Afghanistan, the Air Force continues to provide unique 
capabilities to the Commander International Security Assistance Force 
and U.S. Forces Afghanistan. Since January 2009, the Air Force has 
increased its efforts in airlift, intelligence, surveillance and 
reconnaissance, space support, electronic warfare, close air support, 
engineering and logistics to improve the security environment in 
preparation for the Afghanistan national elections. In addition, the 
U.S. Air Force component of U.S. Central Command will increase its 
theater engagement efforts across the area of responsibility as a long-
term and enduring measure to enhance regional security and stability.

                           IRREGULAR WARFARE

    Question. General Schwartz, Secretary Gates has made it clear that 
irregular warfare is of equal strategic importance as the more 
traditional methods of warfare.
    Can you tell us how the Air Force plans to build its irregular 
warfare capability and how these initiatives are reflected in the Air 
Force's fiscal year 2010 budget request?
    Answer. The Air Force recognizes the important need to rebalance 
our forces with additional irregular warfare capabilities, and we have 
prioritized investments to continue growing these capabilities. 
Operations in Iraq and Afghanistan have also increased the requirement 
for low-density/high-demand personnel and platforms, and we expect this 
high demand to continue as we prosecute counterterrorism and irregular 
warfare missions. As such, we have invested additional resources in our 
Airmen and force structure to ensure that we are able to meet the 
Combatant Commander's needs, both today and in the future.
    Specifically, for the fiscal year 2010 President's budget request:
  --The Air Force gained the Direct Support airlift mission from the 
        U.S. Army. The Service will use 38 C-27J aircraft to support 
        the Time Sensitive/Mission Critical cargo requirements of the 
        U.S. Army to support irregular warfare operations. These 
        aircraft are well suited for the small fields often associated 
        with irregular warfare type missions.
  --The Air Force will support USSOCOM's equipping of 8 MC-130Ws with 
        Precision Strike packages to augment the current AC-130 fleet. 
        This will provide more aircraft for armed overwatch of ground 
        forces engaging in dispersed irregular warfare operations.
  --The Air Force will also establish in fiscal year 2010 a formal air 
        advisor training unit at a base that is yet to be determined to 
        build our international partners' ability to train partner Air 
        Forces.
  --The Air Force will be adding an additional 52 (fiscal year 2010)/
        437 (FYDP) Joint Terminal Attack Controllers and Tactical Air 
        Control Party personnel in support of Army Modularity and their 
        growth to 45 Active Duty Brigade Combat Teams. To ensure that 
        training requirements will be met, the Air Force has also 
        invested in 42 Joint Tactical Controller Training Rehearsal 
        Systems that provide high-fidelity simulator training.
  --The Air Force will also be providing dedicated liaison support 
        aligned at the Army Division level by growing from six to 
        eleven Air Support Operations Centers (ASOCs). These ASOCs will 
        add 51 (fiscal year 2010)/201 (FYDP) personnel and five 
        communications, vehicle, and battlefield equipment packages 
        that will ultimately allow the Air Force and Army airspace 
        control elements to merge into one joint organization.
  --Additional air liaison manpower (21 fiscal year 2010/91 FYDP) will 
        be added at the Army division and corps level to bolster Air 
        Force leadership and expertise of key enablers in intelligence, 
        surveillance, and reconnaissance; air mobility; space; and 
        electronic warfare.
  --The irregular campaigns we are waging in Iraq and Afghanistan are 
        ISR driven. For the foreseeable future we expect this 
        insatiable demand for ISR to continue, but in an effort to meet 
        this demand, the Air Force has surged unmanned aerial systems 
        (UASs) into the fight achieving 36 combat air patrols orbiting 
        24 hours a day, 365 days a year. The Air Force has also 
        increased investment to expand to a total of 50 UAS combat air 
        patrols by fiscal year 2011. We are also adding manpower, as 
        the number of personnel that operate and maintain these 
        systems, and process, exploit, and disseminate the intelligence 
        they gather has dramatically increased.

                       FIFTH GENERATION AIRCRAFT

    Question. General Schwartz, the Air Force has gained a great deal 
of experience in building fifth generation aircraft. The F-22 aircraft 
still has a substantial maintenance burden to sustain its stealth 
characteristics.
    Will the F-35 have a more sustainable stealth profile, or will we 
be facing the time-consuming maintenance issues that the F-22 demands?
    Answer. The F-35 Program is applying low observable maintainability 
lessons learned across the spectrum, centered on designed-in 
maintainability (materials, design, repair), assessment and 
verification, and training. The low observable coating material for the 
F-35 is different than that of the F-22, and the techniques required to 
repair the F-35 coatings are different than those required for the F-
22. With the lessons learned from the F-22 program, we expect the F-35 
low observable coatings to be easier to maintain and support.

                          JOINT CARGO AIRCRAFT

    Question. General Schwartz, we recently heard that the Air National 
Guard was expecting to receive about 48 of these aircraft with more 
going to Army Guard units.
    With a buy of just 38 aircraft, what is the basing plan?
    Answer. The fiscal year 2010 President's budget request provides 
funding for 8 C-27J aircraft for the Air Force to perform direct 
support missions. The Office of the Secretary of Defense, Joint Staff, 
National Guard Bureau, Army, and Air Force are working to develop a 
joint implementation plan which will include basing recommendations.
    The first 6 locations for 24 aircraft have been previously 
announced. They are Martin State, MD; Mansfield, OH; Bradley, CT; 
Battle Creek, MI; Fargo, ND, and Meridian, MS. Each location will 
receive four aircraft.
    The remaining 14 aircraft will be based in accordance with the Air 
Force Strategic Basing Process. The National Guard Bureau, the lead 
agency, will present the C-27J basing criteria to the Strategic Basing/
Executive Steering Group in October 2009. The recommended criteria will 
then be presented to the Secretary and Chief of Staff for final 
approval.

                   FIGHTERS IN THE AIR NATIONAL GUARD

    Question. General Schwartz, the Air Force is focusing its fighter 
acquisition on fifth generation, or low observable, aircraft. Is 
stealth required for the Air Sovereignty mission?
    Answer. Homeland Defense is the Department of Defense's first 
priority and we are committed to the Operation NOBLE EAGLE mission 
through the long term. Stealth technology is not required to protect 
aircraft fulfilling this mission under any currently projected threat 
scenario. However, these Operation NOBLE EAGLE fighter aircraft are not 
dedicated solely to air defense and should be capable to support the 
full spectrum of combat operations.

             INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE

    Question. General Schwartz, the Army and the Air Force have 
invested in C-12 airplanes to provide full motion video and other 
capabilities to our troops in Iraq and Afghanistan.
    Do you believe that greater efficiencies could be gained through 
common management of these programs, and if so, what might those be?
    Answer. Multiple Service acquisition entities have been tasked to 
develop and field unique, quick reaction capabilities to meet the 
increasing and urgent need for full motion video (FMV) in current 
overseas contingency operations. In response to this urgent need, the 
Air Force has already fielded 8 MC-12W Project Liberty aircraft that 
incorporate a combination of sensors (to include FMV) and are proving 
their worth in combat on each mission. The Air Force will continue this 
effort to provide a total of 37 Project Liberty aircraft. At this time, 
potential increased efficiencies of C-12 class aircraft management may 
not be possible due the wide variety and combination of C-12 aircraft 
in separate Services. These aircraft have varying sensor combinations 
assembled under quick reaction timelines required by the warfighter. 
Additionally, numerous aircrew manning and training requirements may 
preclude potential efficiencies gained through a common approach at 
this time.
    Question. General Schwartz, we have recently been informed that 
there are delays in delivering some of the Project Liberty aircraft.
    What do these delays mean for fielding the capability, and do you 
have a plan in place to fix the problems?
    Answer. The Secretary of Defense tasked the Air Force to get him a 
70 percent solution to the fight as rapidly as possible. The Air Force 
delivered an 80 percent solution to the warfighters in less than 9 
months and is now following up with an aggressive plan to add the 
remaining 20 percent through a quick reaction block upgrade program. 
The initial scope of this development effort was estimated at 8 months; 
actual results were a 7 month delivery date for aircraft numbers 1-7. 
We are now implementing lessons learned from the modification of 
aircraft tails numbers 1-7 to improve the modification process for the 
remaining deliveries. These include opening additional integration and 
kit production lines on a 24/7 schedule and improvements to the 
manufacturing and quality control processes. The first Phase II 
aircraft (tail #8) has been successfully tested in all aspects of 
mission performance and is the baseline for tails numbers 9-37. 
Lessons-learned from the development of tail #8 have been applied to 
the production line for aircraft numbers 9-37 to prevent any further 
delivery and deployment delays similar to the ones already experienced. 
No delays in the remaining aircraft deliveries are anticipated.

                       EXPORT VERSION OF THE F-22

    Question. Secretary Donley, I believe the Department should 
consider an export program for the F-22 Raptor fighter aircraft. Under 
the rules for such a program, the costs for developing an export 
variant is borne by the interested nation, not the United States. This 
would enable us to provide advanced fighter capabilities to our close 
friends and allies.
    General Schwartz, how could the export of F-22 to U.S. allies in 
the Pacific Rim region affect our international relationships there? 
Would this be beneficial?
    Answer. Due to legal restrictions on discussing F-22 exports, and 
the overriding technology transfer issues involved, the Air Force does 
not have a well vetted position on this subject. However, I believe the 
export of F-22 aircraft to partner air forces would likely have a net 
negative effect on U.S. international relationships in the Pacific.
    An F-22 export program can be expected to shift focus away from F-
35 exports, likely driving undesirable price and schedule changes to 
the F-35 program. For instance, the manufacturer would divert 
engineering and management resources away from the F-35 to developing 
an F-22 export variant. Any perturbations in our close allies' F-35 
programs, induced by a mid-course U.S. Government policy modification, 
could tend to disrupt our current stable relationships.
    Finally, the exorbitant costs (well over $2 billion) associated 
with development of an export variant could well become a point of 
contention with our partners. The resulting airframe, likely different 
in many respects from the Air Force F-22 because of technology transfer 
issues, would also reduce interoperability and lessen partner 
satisfaction. Although F-22 export could also provide another avenue 
for security assistance activities, the size of the Air Force F-22 
inventory, unlike the F-15 and F-16, will prevent its development into 
a robust instrument of security cooperation. In contrast, the planned 
F-35 fleet size translates into much greater security cooperation 
opportunities which F-22 purchasers would forego. For these reasons, I 
believe F-22 export would likely have an overall negative effect.

                           IRREGULAR WARFARE

    Question. General Schwartz, in this time of fiscal challenge, how 
will the Air Force ensure it maintains its existing conventional 
superiority while investing in these new capabilities? Where do you 
envision trade-offs?
    Answer. The fiscal year 2010 President's budget request reflects 
tough, thoughtful decisions aimed at properly resourcing capabilities 
that enable ongoing operations, while maintaining our superiority in 
conventional capabilities. We have taken aggressive measures to balance 
our portion of the fiscal year 2010 President's budget request in a 
fiscally-constrained environment, amidst the challenges of continuing 
high operations tempo and rising operating costs. To meet the demands 
of an uncertain and dynamic international security environment, the 
fiscal year 2010 President's budget request reflects strategic balance 
across these diverse mission sets and functions.
    Question. General Schwartz, if these new initiatives are 
implemented, how will you ensure that they complement, and do not 
unnecessarily duplicate, the capabilities of existing Air Force Special 
Operations Command air advisory units?
    Answer. The Air Force strives to be a good steward of taxpayer 
dollars. Changes in doctrine, organization, training, materiel, 
leadership and education, personnel, and facilities are evaluated 
before a material solution is funded. For example, the establishment of 
the Air Advisor Schoolhouse is a foundational step towards expanding 
the Building Partner Capacity and Security Force Assistance structure 
resident in the general purpose forces of our Air Force. They will 
definitely complement the Aviation Foreign Internal Defense roles of AF 
Special Operations Squadron units, primarily the 6th Special Operations 
Squadron. The 6th Special Operations Squadron is considered the ``gold 
standard'' for aviation advising, and the time, talent, and treasure 
invested in this capability result in a graduate-level capability with 
expertise focused at regions around the globe. However, the demand 
signal for advising partner nations in aviation far exceeds what 
Special Operations Squadron units can support. But just as important, a 
large percentage of these engagement efforts do not require the 
graduate-level of expertise that a Special Operations Squadron 
provides. By developing tiered levels of expertise within the general 
purpose forces, we can work with ambassadors and country teams for a 
tailored engagement approach that complements Special Operations 
Squadron activities.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                          JOINT CARGO AIRCRAFT

    Question. General Schwartz, you may know that the 186th Air 
Refueling Wing currently flies KC-135 tanker aircraft out of Key Field 
in Meridian, MS. Due to a 2005 Base Realignment and Closure decision, 
all of their aircraft will be reassigned and they are scheduled to be 
replaced with Joint Cargo Aircraft. Given this direct impact on my 
State, you are probably not surprised when I tell you that I have been 
watching the Joint Cargo Aircraft program over the last few years. With 
this budget, the Department of Defense announced its decision to 
transfer the Joint Cargo Aircraft mission from the Army to the Air 
Force.
    Is it the Department's intent that only the Air Force operates the 
Joint Cargo Aircraft? If so, can you explain to the committee what 
steps you are taking to ensure the Army's logistics requirements will 
be meant in a timely manner?
    Answer. While the C-27J has been transferred exclusively to the Air 
Force, aircraft manning and basing are still being worked. As for 
ensuring we meet the Army's logistical needs, the Air Force, in 
conjunction with the Army, is rapidly developing a Concept of 
Employment (CONEMP) for the Time-Sensitive/Mission Critical (TS/MC) 
Direct Support airlift mission closely mirroring the Army's current 
operational construct. In addition, 25 percent of the crew force in the 
initial C-27J deployment in 2010 will consist of Army personnel to 
ensure an experienced core cadre to facilitate initial Air Force 
operations. Close coordination with the Army throughout the program 
transfer and into the first deployment of the C-27J in the fall of 2010 
will be the cornerstone to ensuring mission success.

                          F-15 RADAR UPGRADES

    Question. General Schwartz, I noticed funding for five additional 
Active Electronically Scanned Array radars for F-15C aircraft is number 
eight on your Unfunded Priority List. I understand this type of radar 
is being used on a number of other fighters as well and that it 
significantly enhances the capability of these aircraft in detecting 
and engaging enemy threats.
    General Schwartz, could you elaborate on the importance of the 
Active Electronically Scanned Array radar system and also tell us about 
the need for these five additional systems?
    Answer. Active Electronically Scanned Array radar on the remaining 
long-term F-15 C/Ds in the Air Force inventory adds significant 
capability ensuring their viability and utility. Among the advantages 
are significantly improved performance against cruise missiles; a near 
doubling of improvement in target acquisition and combat identification 
range; a baseline capability for digital radio frequency memory 
protection; the ability to detect and track multiple targets, and 
connectivity with on-board and off-board sensors.
    We will also obtain a smaller deployment footprint (nine to one 
pallets) and greatly improve the meantime between failures.
    Question. If funded, would these systems be installed on Active 
Duty or Air National Guard F-15C aircraft?
    Answer. Eighteen APG-63v3 Active Electronically Scanned Array 
(AESA) radars have already been funded by the Congress for the Air 
National Guard. The first 14 radars will be installed in the first 
quarter of calendar year 2010. The remaining four radars are being 
procured. Only long-term F-15s (Golden Eagles) are slated for APG-63v3 
AESA installation. The five AESA radars noted above for active duty F-
15s will be installed at the same time as the ANG radars.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And this subcommittee will meet next 
Tuesday, June 9 at 10:30 a.m. At that time, we will receive 
testimony from the Secretary of Defense, the Honorable Robert 
Gates, and from the Chairman of the Joint Chiefs of Staff, 
Admiral Michael Mullen.
    And with that, we would like to thank the men and women of 
the Air Force for their service to our country. Thank you very 
much, sir.
    General Schwartz. Thank you, Mr. Chairman, for your 
support.
    [Whereupon, at 12 noon, Thursday, June 4, the subcommittee 
was recessed, to reconvene at 10:30 a.m., Tuesday, June 9.]

</pre></body></html>
